U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                         The United States Marshals Service
                              Judicial Security Process


                                        September 2007




                                      I-2007-010
                               EXECUTIVE DIGEST


INTRODUCTION

      One of the critical missions of the United States Marshals Service
(USMS) is to protect the members of the federal judiciary. The USMS is
responsible for protecting approximately 2,200 federal judges and 5,500
other individuals related to the work of the federal judiciary at over 400
court facilities nationwide.

       In March 2004, the Department of Justice (Department) Office of
the Inspector General (OIG) issued a report that concluded that while the
USMS had placed greater emphasis on judicial security after the
September 11, 2001, terrorism attacks, it needed to take immediate
steps to improve its ability to assess and respond to threats to the federal
judiciary. 1 The USMS’s assessments of reported threats were often
untimely and of questionable validity. The USMS’s capability for
collecting and sharing intelligence on potential threats was limited. The
USMS also lacked adequate standards for determining which protective
measures should be used in response to potential risks. We made six
recommendations to improve the USMS’s capacity for protecting the
federal judiciary. The USMS concurred with all six and took steps to
address them.

      The OIG conducted this follow-up review to examine the USMS’s
progress since our March 2004 report. In this review, we examined the
USMS’s assessment of reported threats made against federal judges or
other USMS protectees; the development of a protective intelligence
capability to identify potential threats; and recent measures the USMS
has taken to improve judicial security and to enhance its capability to
respond to judicial security incidents. 2




       1 Department of Justice, Office of the Inspector General, Review of the United
States Marshals Service Judicial Security Process, Evaluation and Inspections Report
I-2004-004 (March 2004).

       2  Reported threats are incidents, situations, activities, or communications that
are brought to the attention of the USMS by the recipient of the threat or by other law
enforcement or intelligence agencies. Potential threats are individuals or groups that
pose a threat to a USMS protectee but have not communicated a direct threat to their
targets or to law enforcement or intelligence agencies.



U.S. Department of Justice                                                                 i
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

       The OIG found that from the issuance of the OIG’s March 2004
report through early 2007, the USMS’s efforts to improve its capabilities
to assess reported threats and identify potential threats languished.
During this period, threat assessments took longer to complete, and over
half of the assessments were not completed, resulting in a backlog of
1,190 “pending” threat assessments as of October 1, 2006. Also, the
USMS was slow in staffing its recently established Office of Protective
Intelligence, and it did not collect and analyze information on potential
threats. 3

      In fiscal year (FY) 2007, the USMS assigned additional resources to
resolve the backlog of pending threats and began assessing new threats
more quickly. The USMS also began enhancing security measures to
protect the federal judiciary. For example, the USMS implemented the
congressionally authorized home alarm program and, as of July 2007,
has installed about 95 percent of the home alarms requested by federal
judges. Also, to support the judicial security mission, the USMS is
enhancing the use of its Technical Operations Group, which uses
sophisticated technologies to provide investigative and intelligence
support. In addition, the USMS is developing a Rapid Deployment Team
program that will respond to significant incidents involving judicial
security around the country.

       However, the USMS acknowledges that it needs to further improve
its threat assessment process and to more fully develop protective
intelligence that identifies potential threats against the judiciary. USMS
managers told us that they believe the current headquarters threat
assessment process is of limited utility and said that they plan to
implement a new process in FY 2008. Moreover, to enable it to collect
and analyze information on potential threats, the USMS has identified
various protective intelligence initiatives it would like to implement by
FY 2010, such as establishing a system for reporting suspicious activities
around courthouses and procuring additional analytical tools for
evaluating the information. However, the USMS lacks detailed plans
that identify the objectives, tasks, milestones, and resources for
accomplishing these needed improvements. We believe that the USMS
must exhibit a greater sense of urgency in implementing its plans for

        3 The Office of Protective Intelligence was established in June 2004. It is a

component of the Judicial Security Division, which is responsible for the USMS’s federal
judicial security programs.



U.S. Department of Justice                                                            ii
Office of the Inspector General
Evaluation and Inspections Division
improving its capability to assess reported threats, developing and
sharing protective intelligence on potential threats, and completing the
implementation of enhanced security measures for the federal judiciary.

       The OIG conducted a survey of all 2,141 federal judges to obtain
their perceptions of their safety and security and of the USMS’s efforts to
protect them. Federal judges reported that they believe the unknown
general danger associated with being a judge (which we term “potential
threat”) poses a greater risk than stated or implied threats (which we
term “reported threat”). They reported that they believe that risk varies
by the type of cases they hear, with gang, terrorism, and organized crime
cases posing higher risks. Regarding the USMS’s performance, federal
judges reported that they were satisfied with the protection provided by
the USMS. Specifically, 87 percent reported that they were either very or
somewhat satisfied with its performance, and only 5 percent were
somewhat or very dissatisfied. 4 A majority of the judges also reported
that they were satisfied with the USMS judicial security personnel
assigned to their districts. In response to questions about what
measures the USMS should take to further improve judicial security, the
greatest number of judges ranked improving intelligence collection and
analysis capability as most important.

       In addition to surveying federal judges, we interviewed 29
individuals, including representatives from the USMS, federal judges,
and officials in the Administrative Office of the U.S. Courts. We also
conducted a survey of 82 Judicial Security Inspectors who oversee
judicial security operations in USMS district offices. We attended the
40-hour USMS Protective Investigations Training Program course
conducted at the Federal Law Enforcement Training Center in August
2006. We also reviewed relevant USMS Directives, policies and
procedures, manuals, training materials, clearance rosters, and
examples of Office of Protective Intelligence information products. The
following sections provide additional details on our findings.

Assessing Reported Threats

       The threat assessment process begins with the receipt or
identification of a threat. The USMS takes measures to ensure the
protectee’s safety at the district level and then reports pertinent
information on the incident to the Office of Protective Intelligence for a
threat assessment, which provides data the district uses in determining

       4   Seven percent were neither satisfied nor dissatisfied.



U.S. Department of Justice                                                iii
Office of the Inspector General
Evaluation and Inspections Division
the appropriate protective response. After the issuance of our March
2004 report on judicial security, the USMS failed to improve the
timeliness of its threat assessments in FY 2005 and FY 2006. We
reviewed a random sample of 568 of the 2,018 threats reported to USMS
headquarters in those 2 years and found that the Office of Protective
Intelligence did not assess threats within established timeliness
standards in about two-thirds of all cases in our sample. Moreover, the
USMS did not complete threat assessments on more than half of all
reported threats, which led to a backlog of 1,190 “pending” assessments
as of October 1, 2006. We also found that the Office of Protective
Intelligence did not monitor the timeliness of threat assessments during
FY 2005 and FY 2006. Office of Protective Intelligence management said
the poor performance was due to the increasing number of reported
threats and its inability to hire additional analytical staff.

       In early FY 2007, Office of Protective Intelligence management
implemented procedures to manually monitor the timeliness and quality
of threat assessments and dedicated additional staff time to assessing
threats and resolving the backlog of pending cases. We found that those
actions taken by the USMS enabled it to assess reported threats more
quickly beginning in FY 2007. Our examination of a random sample of
232 threats from the first half of FY 2007 found that the USMS had
conducted assessments on all of them and that 93 percent of the
assessments were completed within applicable timeliness standards.
Although threat assessments are now more timely, Judicial Security
Division managers told us that the assessments produced under the
current process are of limited utility because they do not provide
sufficient information about the threateners’ behavior. USMS managers
told us that they plan to change the threat assessment process in
FY 2008.

       USMS managers further explained that the Office of Protective
Intelligence is starting to employ a more collaborative method of working
with the 94 USMS districts on protective investigations, threat
assessments, and case management. Although each protective
investigation is unique, Office of Protective Intelligence managers told us
that they see the new process as an opportunity to standardize, over
time, the protective investigation process performed in each of the
districts.

      The new threat assessment process described to us by Office of
Protective Intelligence managers could improve the ability of the USMS to
assess and respond effectively to reported threats. However, the Office of
Protective Intelligence has not developed formal plans or guidance for the

U.S. Department of Justice                                                iv
Office of the Inspector General
Evaluation and Inspections Division
new process, with defined milestones, tasks, and outcomes. The new
process needs to be formalized and defined in order for the Office of
Protective Intelligence to implement it, provide direction to the districts,
and provide training to headquarters and district staff involved in the
judicial protection mission.

Identifying Potential Threats

       The USMS has made limited progress at implementing a program
to collect and analyze information to identify potential threats. In June
2004, the USMS established the Office of Protective Intelligence to
provide a centralized function for assessing reported threats and
identifying potential threats. Our current review found that 3 years after
the USMS established the office, it still lacks the staff needed to gather
and analyze information to develop protective intelligence on potential
threats. From May 2005 through July 2007, the USMS added staff to
the Office of Protective Intelligence, but the additional resources were
primarily assigned to the Investigations Branch where they assessed
reported threats.

        The USMS has made improvements to its capacity for collecting
classified information by increasing the number of staff with Top Secret
clearances. The USMS also installed additional secure telephones in
district offices and built a secure facility for working with classified
information at headquarters. While in August 2003 51 of the USMS’s 94
districts had secure telephones to transmit classified information, by
April 2005 all 94 districts had them. Also, as of July 2007 the USMS
was nearing completion on construction and accreditation of a Threat
Management Center housed in a sensitive compartmented information
facility. The Threat Management Center will provide the Office of
Protective Intelligence with the capacity to electronically receive, access,
analyze, and disseminate classified information related to threats to the
judiciary.

      However, the Office of Protective Intelligence still does not
systematically collect and analyze information about potential threats to
the judiciary from its districts, other federal, state, and local law
enforcement agencies, or courts to produce protective intelligence. For
example, we found that:

       •   The Office of Protective Intelligence does not analyze
           information it already receives on reported threats to detect
           national or regional patterns. Analyses that identify trends in
           the types of USMS protectees receiving threats, threat delivery

U.S. Department of Justice                                                     v
Office of the Inspector General
Evaluation and Inspections Division
           methods, and the types of people who threaten the judiciary
           could help the districts allocate resources and identify areas
           that need improvement.

       •   The USMS has not issued guidance on the type of judicial
           security information to be reported by district office personnel
           to the Office of Protective Intelligence.

       •   The Office of Protective Intelligence does not analyze data on
           courthouse incidents that the Judicial Security Division collects
           from the districts to identify trends or patterns in suspicious
           activities that may indicate potential threats. Judicial Security
           Division managers stated that they plan to develop a Suspicious
           Activity Report database between FY 2007 and FY 2009
           (depending on funding and staff availability) to identify potential
           threats.

       •   The Office of Protective Intelligence does not collect and analyze
           judicial security-related information from federal, state, or local
           court databases to identify cases that may pose a risk to the
           federal judiciary.

      We also found that the USMS has not assigned full-time
representatives to all Federal Bureau of Investigation Joint Terrorism
Task Forces to improve access to information and intelligence related to
judicial security. From FY 2004 through FY 2007, the USMS reduced
the number of full-time Joint Terrorism Task Force representatives from
25 to 17 and reduced the number of part-time representatives from 25 to
23. During this period, USMS districts also began assigning liaisons to
Joint Terrorism Task Forces. Unlike full- or part-time representatives,
these liaisons do not work on a Joint Terrorism Task Force and do not
have direct access to Federal Bureau of Investigation databases. As of
July 2007, USMS districts have assigned 39 liaisons.

       In a March 30, 2007, memorandum to the OIG, the USMS
Assistant Director of the Judicial Security Division listed numerous
initiatives that the USMS plans to accomplish by FY 2010 to improve the
protective intelligence capabilities of Office of Protective Intelligence, such
as establishing a system for reporting suspicious activities around
courthouses and procuring additional analytical tools. (See Appendix I
for details.) We believe that these initiatives would help the USMS
identify potential threats, but as with our review of the threat assessment
process discussed previously, we note that the Office of Protective


U.S. Department of Justice                                                    vi
Office of the Inspector General
Evaluation and Inspections Division
Intelligence has not developed formal plans with defined milestones,
tasks, and outcomes to achieve these goals.

Implementing Enhanced Security Measures

       Since our March 2004 report, the USMS has implemented
additional security measures to protect the federal judiciary, such as the
installation of home alarms, the enhancement of its Technical Operations
Group, and the creation of a Rapid Deployment Team program to
respond to significant judicial security incidents. We describe the status
of these initiatives below.

       Home Alarms. On June 14, 2005, the Administrative Office of the
U.S. Courts asked all federal judges whether they wanted an alarm
system installed in their homes. Approximately 1,600 of the 2,200
judges requested alarm systems. In December 2005, the USMS awarded
the contract to install the home alarms. After conducting several pilot
installations, between March 2006 and July 2007 the USMS contractor
installed alarms in 1,531 judges’ residences. As of July 2007, the USMS
reported that it had 67 outstanding requests for alarm systems. Of the
67 requests, approximately 30 of the judges are undecided and have yet
to arrange for the home inspection or installation. The other 37 were
requests for which installation was proceeding. 5

       The USMS is not directly notified of events that trigger the federal
judges’ home alarms. Initially, the USMS Communications Center was
included on several judges’ Emergency Contact List which identifies
individuals who may be called prior to the notification of the authorities.
However, according to a JSD manager this presented a problem because
the Communications Center is unable to provide immediate physical
responses to alarms in the residences across the country. Therefore, the
USMS decided that it should not be included on this list. Now, when an
alarm is received, the contractor utilizes the judge’s Emergency Contact
List. If contact cannot be made, the contractor then notifies local law
enforcement. Although the USMS told all districts to ask local law
enforcement agencies to notify it of any emergency response to a judge’s
residence, as of July 28, 2007, the USMS did not know how many alarm
events had occurred at judges’ residences or how many times local police
made emergency responses.

       5 Some judges’ alarm systems were not installed because the judges have

indicated to the USMS that they no longer want the system, are no longer federal
judges, or did not work with the USMS and the contractor to design and install the
system.



U.S. Department of Justice                                                           vii
Office of the Inspector General
Evaluation and Inspections Division
      We have several concerns regarding the USMS’s lack of awareness
about alarm events at judges’ residences. We agree that the contractor
should immediately notify local law enforcement agencies of all
unresolved alarms so that they can respond quickly. We believe,
however, that the contractor should also notify the USMS (after it calls
the local law enforcement agency) so that the USMS can determine
whether a protective investigation is warranted.

      Technical Operations Group. The USMS is enhancing its Technical
Operations Group support of the judicial security mission. In response
to requests from district offices, the Technical Operations Group uses
sophisticated technologies to provide investigative and intelligence
support, primarily for the USMS fugitive apprehension mission. Our
follow-up review found that the USMS made some initial resource
enhancements to the Technical Operations Group and plans to provide
further resource enhancements in FY 2008. 6 However, at the time of this
report the USMS had not yet issued guidance on requesting Technical
Operations Group assistance or criteria for when Technical Operations
Group resources should be deployed in support of the judicial security
mission. The USMS has identified the need for such written
requirements and provided a draft of the document to the OIG in
May 2007.

       Rapid Deployment Team. The Judicial Security Division recently
initiated a Rapid Deployment Team program to respond to significant
incidents, such as an assault on a judge or a disruption of a U.S.
courthouse’s operation. In March 2007, the Deputy Assistant Director
for Judicial Operations told the OIG that the Judicial Security Division
had assigned a working group to draft the operating methodology and
plans for the Rapid Deployment Team program by the end of May 2007.
As of July 2007, the Rapid Deployment Team program was still in
development, and no deployments had occurred. In July 2007, the
Deputy Assistant Director stated that the operating methodology and
plans for the program would not be completed until September 2007.




       6  In September 2006, the Judicial Security Division transferred three personnel
to the Technical Operations Group and, in its FY 2008 budget submission, requested
funding for six positions to assist in the enhanced Technical Operations Group support
of the judicial security mission. The USMS also requested $890,000 for Technical
Operations Group equipment and technology.



U.S. Department of Justice                                                          viii
Office of the Inspector General
Evaluation and Inspections Division
CONCLUSION AND RECOMMENDATIONS

       We found that from the issuance of the OIG’s March 2004 report
through early 2007, the USMS’s efforts to improve its capabilities to
assess reported threats and identify potential threats languished. Threat
assessments took longer to complete, and over half of the threats
reported by USMS districts remained pending as of October 1, 2006.
Also, the USMS did not implement an effective program to develop
protective intelligence that identifies potential threats against the
judiciary. The USMS acknowledges these deficiencies and plans to revise
its threat assessment process. During this review, the USMS also
informed the OIG of numerous initiatives it plans to implement by
FY 2010 to enable it to better collect and analyze information on
potential threats to the judiciary.

      Also, since our March 2004 report, the USMS has implemented
several security measures to protect the federal judiciary. The USMS has
implemented a congressionally authorized home alarm program and
worked with a contractor that installed about 95 percent of the home
alarms requested by federal judges. The USMS is also enhancing its
Technical Operations Group and developing a Rapid Deployment Team
program to support the judicial security mission.

      We believe that to fulfill its critical mission of protecting the federal
judiciary, the USMS must exhibit a greater sense of urgency in
implementing its plans for improving its capability to assess reported
threats, creating and sharing protective intelligence on potential threats,
and completing the implementation of enhanced security measures.

     To improve the USMS’s capacity to protect the federal judiciary, we
recommend that the USMS take the following actions:

      1. Develop a formal plan that defines objectives, tasks, milestones,
         and resources for the new threat assessment process.

      2. Create a workload tracking system for threat assessments.

      3. Develop a formal plan that defines objectives, tasks, milestones,
         and resources for implementing a protective intelligence
         function to identify potential threats.

      4. Modify USMS databases to support the new threat assessment
         process and protective intelligence function to identify potential
         threats.


U.S. Department of Justice                                                   ix
Office of the Inspector General
Evaluation and Inspections Division
      5. Require the home alarm contractor to notify the USMS of alarm
         events after notifying the local law enforcement agency.

      6. Issue operational guidance for requesting and deploying
         Technical Operations Group resources and Rapid Deployment
         Teams.




U.S. Department of Justice                                           x
Office of the Inspector General
Evaluation and Inspections Division
                                             TABLE OF CONTENTS


INTRODUCTION .............................................................................................................. 1

   BACKGROUND .......................................................................................................... 1

PURPOSE, SCOPE, AND METHODOLOGY................................................................ 21

RESULTS OF THE REVIEW ......................................................................................... 24

   Assessing Reported Threats ................................................................................ 24
   Identifying Potential Threats ............................................................................... 34
   Implementing Enhanced Security Measures ................................................. 45

CONCLUSIONS AND RECOMMENDATIONS ........................................................... 58

APPENDIX I: JUDICIAL SECURITY DIVISION ACCOMPLISHMENTS AND
INITIATIVES ................................................................................................................... 60

APPENDIX II: RESULTS OF THE OIG’S JUDICIAL SURVEY ................................ 67

APPENDIX III: RESULTS OF THE OIG’S JUDICIAL SECURITY INSPECTOR
SURVEY........................................................................................................................... 78

APPENDIX IV: THE UNITED STATES MARSHALS SERVICE RESPONSE.......... 98

APPENDIX V: OIG’S ANALYSIS OF THE UNITED STATES MARSHALS
SERVICE RESPONSE................................................................................................... 107




U.S. Department of Justice                                                                                                      xi
Office of the Inspector General
Evaluation and Inspections Division
                                 INTRODUCTION


      In March 2004, the Department of Justice (Department), Office of
the Inspector General (OIG) issued a report on the United States
Marshals Service’s (USMS) judicial security process. 7 The OIG found
that:

       •   USMS assessments of threats against USMS protectees were
           often untimely and of questionable validity;

       •   The USMS had a limited capability to collect and share
           intelligence on potential threats; and

       •   The USMS also lacked adequate standards for determining
           which protective measures should be used in responding to
           potential risks.

The OIG conducted this current review to follow up and examine the
USMS’s progress since our March 2004 report.

      The USMS judicial security operations examined in this report
encompass three broad areas: the assessment of reported threats made
against USMS protectees; the development of a protective intelligence
capability to identify potential threats; and recent measures to improve
judicial security and to enhance the USMS’s capability to respond to
judicial security incidents.

BACKGROUND

        One of the critical missions of the USMS is to protect the members
of the judiciary. The USMS is responsible for protecting approximately
2,200 federal judges and 5,500 other individuals who work alongside the
federal judiciary, including prosecutors and jurors, at over 400 court
facilities nationwide. The primary duties the USMS performs to ensure
the security and safety of its protectees and the judicial process are
providing personal protection, providing physical security in
courthouses, safeguarding witnesses, and transporting and producing
prisoners for court proceedings. USMS protectees can include:

       7 Department of Justice, Office of the Inspector General, Review of the United

States Marshals Service Judicial Security Process, Report I-2004-004, March 2004.



U.S. Department of Justice                                                              1
Office of the Inspector General
Evaluation and Inspections Division
       •   federal judges (magistrate, bankruptcy, district, appellate);

       •   U.S. Attorneys, Assistant U.S. Attorneys, and their staffs;

       •   U.S. Probation Officers;

       •   Pretrial Services Officers;

       •   Tax Court Judges (Article I Judges);

       •   Clerks of the Court;

       •   Federal Public Defenders;

       •   Justices of the Supreme Court of the United States (in
           cooperation with the Supreme Court Police);

       •   U.S. Trustees; and

       •   jurors and witnesses.

       According to the USMS, in performing its judicial security mission
in fiscal year (FY) 2006 it:

       •   conducted 215 protective service details for Supreme Court
           Justices;

       •   conducted 44 protective details for members of the federal
           judiciary;

       •   provided security for 179 judicial conferences and 26 special
           events attended by members of the federal judiciary;

       •   coordinated and provided security for 135 high-threat trials;

       •   performed threat assessments on 1,111 reported threats;

       •   trained 210 Deputy Marshals in a 3-day Judicial Protection
           Training Conference; and

       •   trained 190 Deputy Marshals in a 5-day training seminar on
           protective investigations.




U.S. Department of Justice                                                  2
Office of the Inspector General
Evaluation and Inspections Division
       According to the USMS, the number of reported inappropriate
communications and threats against members of the judiciary has
continued to increase since FY 2002. The USMS defines an
inappropriate communication as any communication directed to a USMS
protectee that warrants further investigation. The USMS defines a threat
as “any action, whether explicit or implied, of intent to assault, resist,
oppose, impede, intimidate, or interfere with any member of the federal
judiciary or other USMS protectee, including staff and their family.” 8
Inappropriate communications and threats can be delivered in writing,
electronically, telephonically, verbally, through an informant, or through
some suspicious activity around the protectee. Chart 1 illustrates the
number of reported inappropriate communications and threats from
FY 2002 to FY 2006. The USMS expects to receive between 1,200 and
1,300 such communications by the end of FY 2007, although this
number is not fully comparable to prior years’ numbers because of a
procedural change implemented in FY 2007. Office of Protective
Intelligence managers told us that in FY 2007 they began coordinating
and consolidating investigations involving mass mailings and habitual
letter writers across districts, which reduced the number of new
investigations recorded in the Warrant Information Network/Justice
Detainee Information System (WIN/JDIS) by approximately 100 cases. 9




       8   USMS Directive 10.16, Protective Investigations, April 2006.

       9  WIN/JDIS consolidates judicial threat data with warrant, criminal history,
prisoner scheduling, and booking information in a single database. As the USMS’s
central law enforcement information system, WIN/JDIS is used to manage records and
information collected during fugitive investigations and protective investigations
involving potential threats made against the federal judiciary. WIN/JDIS contains
current and historical case data for all USMS investigations. It is also used to access
the National Law Enforcement Telecommunication System and National Crime
Information Center systems to obtain criminal record information from other federal,
state, local, and foreign law enforcement agencies.



U.S. Department of Justice                                                            3
Office of the Inspector General
Evaluation and Inspections Division
  Chart 1: Number of Reported Inappropriate Communications and
               Threats, FY 2002 Through FY 2006


  1200



                                                                       1111
  1000


                                                         953
   800




   600                                     665
                             592
                  565

   400




   200




     0
              FY 2002    FY 2003       FY 2004       FY 2005        FY 2006

Source: USMS FY 2008 Performance Budget



      Table 1 shows the 10 USMS districts with the largest number of
reported inappropriate communications and threats for FY 2006. 10




         10Based on information contained in the USMS’s Warrant Information Network
(WIN/JDIS) system that was provided to the OIG for analysis in November 2006, there
were 1,059 reported threats in FY 2006. The USMS explained that the data it provided
to the OIG does not match the 1,111 threats it reported to Congress in January 2007
(Chart 1) because WIN/JDIS allows case records to be updated or deleted and,
therefore, the number of threats recorded in WIN/JDIS changes on a regular basis.



U.S. Department of Justice                                                         4
Office of the Inspector General
Evaluation and Inspections Division
        Table 1: Districts With the Highest Number of Reported
        Inappropriate Communications and Threats in FY 2006

           Ranking                   District                    Number
              1                       Nevada                      227
              2                  Central California                46
              3                  Northern Georgia                  44
              4                   Southern Texas                   35
              5                 Northern California                32
              6                  Southern Florida                  30
              7                 Southern New York                  29
              8                  Northern Illinois                 28
              9                 Eastern Louisiana                  25
             10                   Middle Florida                   20

            Total                                                  516
       Source: USMS

    According to the USMS, of the 1,111 inappropriate
communications and threats reported in FY 2006:

       •   46.4 percent came from the 10 districts listed in Table 1; 11

       •   64 of the 94 districts reported 10 or fewer inappropriate
           communications or threats to the Office of Protective
           Intelligence (OPI) in FY 2006;

       •   684 inappropriate communications or threats were directed
           towards federal judges, 162 were directed at U.S. Attorneys and
           Assistant U.S. Attorneys, and 265 were directed at other USMS
           protectees;

       •   651 inappropriate communications or threats were conveyed in
           writing, 141 by telephone, 130 through an informant, 79
           verbally, and 110 were reported as suspicious activities;

       •   659 inappropriate communications or threats were from
           identifiable individuals, 132 were anonymous, and 320 were
           initiated by individuals already incarcerated; and

       •   10 inappropriate communications or threats were relayed in the
           form of a bomb threat and 2 as a biological-chemical threat.

        11 In the District of Nevada, a USMS official estimated that between 180 and

190 of the 227 reported inappropriate communications or threats in FY 2006 were
attributable to one high-profile case.



U.S. Department of Justice                                                             5
Office of the Inspector General
Evaluation and Inspections Division
USMS Headquarters Operations

Judicial Security Division

       The USMS Judicial Security Division (JSD) is responsible for the
USMS’s federal judicial security programs, including protective
intelligence operations, physical protection of judicial facilities, personal
protection, and technical security operations for the judiciary. The JSD’s
strategic plan for 2007-2011 states that the JSD:

       •   provides proactive deterrence to threats against the federal
           judiciary;

       •   develops and implements innovative protective techniques;

       •   provides state-of-the-art equipment and new technologies for all
           physical and personal security requirements; and

       •   ensures rapid and safe responses to emergency situations as
           well as unobtrusive counter-surveillance and expert protection
           during routine judicial security operations.

      The JSD consists of two operational components – Judicial
Services and Judicial Operations – and an Office of Management and
Administration (see Figure 1).




U.S. Department of Justice                                                  6
Office of the Inspector General
Evaluation and Inspections Division
                                 Figure 1: Judicial Security Division


                                      Assistant Director


                                                 National Center for Judicial
                                                          Security




        Judicial Operations             Management &                       Judicial Services
         Deputy Assistant               Administration                      Deputy Assistant
             Director                       Chief                               Director


         Office of Courthouse                                                    Office of Court
             Management                                                              Security


                                                                                Office of Financial
          Office of Protective                                                    Management
              Intelligence


                                                                                Office of Security
          Office of Protective                                                      Contracts
               Operations

                                                                                Office of Security
                                                                                     Systems

   Source: USMS 12-16-06

Judicial Services

       The Judicial Services component has oversight for the USMS
judicial security programs, which are funded by the Administrative Office
of the United States Courts’ (AOUSC) court security appropriation. This
funding provides for the Court Security Officer program, security
equipment and systems for space occupied by the judiciary, and for
USMS employees to administer the daily functions. The Judicial Services
component is responsible for overseeing four areas:

   •   the Office of Court Security, which is responsible for the daily
       operations and personnel management of the Court Security
       Officer program;

   •   the Office of Financial Management, which has the daily oversight
       responsibility for a $300 million budget;

   •   the Office of Security Contracts, which performs the daily contract
       responsibilities with the private contractors and the district
       Contracting Officers’ Technical Representatives, and



U.S. Department of Justice                                                                            7
Office of the Inspector General
Evaluation and Inspections Division
   •   the Office of Security Systems, which is responsible for all security
       and monitoring systems for judicial space.

Judicial Operations

      The Judicial Operations component utilizes a national network of
operational personnel (Inspectors) and physical security specialists to
manage personal and facility security issues for the judiciary. The
Judicial Operations component is responsible for overseeing three areas:

   •   The Office of Courthouse Management serves as the center of
       expertise concerning prisoner movement and detention facilities
       within federal courthouses. This office also has oversight of the
       home intrusion detection system installation program for judges’
       personal residences.

   •   The Office of Protective Operations comprises four branches. The
       Policy and Operations Coordination Branch manages the Special
       Assignment Fund that assists districts with high-threat trials,
       terrorist trials, protection of the judiciary and other government
       officials, and any other unusual missions. The Dignitary
       Protection Branch supervises the Deputy Attorney General and the
       Director of the Office of National Drug Control Policy protection
       details. The Office of Protective Operations has a total of 33
       inspectors and managers, including the 12 inspectors assigned to
       each of the 12 judicial circuits. The East and West Region
       Branches supervise their assigned inspectors who are responsible
       for protecting the Supreme Court Justices when they travel outside
       Washington, D.C. They also supervise all judicial conferences,
       supervise judicial and government officials under protection in the
       field, and assist the districts with the supervision and management
       of high-threat and terrorist judicial hearings in the field.

   •   The Office of Protective Intelligence is responsible for collecting,
       analyzing, producing, and disseminating threat analysis
       information and protective intelligence about groups, individuals,
       and activities that pose a potential threat to the judiciary and
       persons and property protected by the USMS. It is also
       responsible for providing this information to the districts,
       protective details, and USMS senior leadership. The Office of
       Protective Intelligence (OPI) is a central resource for guidance,
       oversight, and coordination for protective investigations and
       protective intelligence. Because the threat analysis and protective


U.S. Department of Justice                                                     8
Office of the Inspector General
Evaluation and Inspections Division
       intelligence operations of the OPI are a major focus of this report,
       the OPI’s operations are discussed in greater detail below.

The Office of Protective Intelligence

      On June 1, 2004, the USMS Director realigned existing resources
and established the OPI within the JSD. 12 The goals of the OPI are to:

       •    provide information and intelligence for the planning and
            execution of USMS operations;

       •    develop and maintain a comprehensive repository of protective
            intelligence and information;

       •    provide information and data for allocation and management of
            resources, and data for the development and implementation of
            policies and procedures;

       •    provide a fusion center for all classified and unclassified
            information collected for analysis and development of protective
            intelligence products for applicable dissemination in support of
            USMS missions; and

       •    incorporate intelligence and information gathered from other
            agencies into comprehensive products that support USMS
            missions. 13

      The OPI comprises three components: the Investigations Branch,
the Intelligence Branch, and the Threat Management Center (see
Figure 2). The JSD requested six Inspector positions for FY 2008 for the
Threat Management Center. In the interim, the JSD plans to staff the
Threat Management Center with personnel from the Investigations
Branch.



       12  The USMS reported the date of June 1, 2004, to the OIG in response to a
recommendation in the OIG’s March 2004 report, Review of the United States Marshals
Service Judicial Security Process. On other occasions, the USMS has also cited July 1,
2005, as the date the OPI began operations, which is when the threat analysis and
protective investigation functions were transferred from the Investigative Services
Division’s Analytical Support Unit to the OPI.

        13 OPI presentation made to USMS Protective Investigations Training Program

participants, Federal Law Enforcement Training Center, July – August 2006.



U.S. Department of Justice                                                            9
Office of the Inspector General
Evaluation and Inspections Division
                                  Figure 2: Office of Protective Intelligence


                                                 OPI Chief




         Investigations Branch              Threat Management Center   Intelligence Branch
            Assistant Chief                       Assistant Chief        Assistant Chief


 Circuits 1 & 2           Intelligence
                           Research                                          JTTF Program
   Inspector               Specialist
                                                Senior Inspector              Coordinator

Circuits 4 & 12           Intelligence
                           Research                                          National JTTF
   Inspector               Specialist
                                                                                Liaison

Circuits 3 & 11           Intelligence
                           Research
   Inspector               Specialist
                                         2 Program Analysts                JTTF/NCR Liaison
                                         East/West Regions
 Circuits 6 & 7           Intelligence
                           Research
   Inspector               Specialist
                                                                             BOP/Sacramento
                                                                          Intelligence Unit Liaison

 Circuits 5 & 8           Intelligence
                           Research
   Inspector               Specialist
                                                                           U.S. Supreme C ourt
                                                                            C apitol Police/MPD
                                                                                   Liaison

 Circuits 9 & 10          Intelligence
                           Research
    Inspector              Specialist


Source: USMS June 2007

 Investigations Branch

        The Investigations Branch’s primary duty is to provide investigative
 oversight and analysis of inappropriate communications and threats
 reported by the districts to the OPI. Investigations Branch staff also
 produce and disseminate judicial security-related information to the
 districts, including alert notices, information bulletins, and foreign travel
 briefs. The Investigations Branch staff comprises six circuit teams. 14
 Each team is responsible for 2 of the 12 judicial circuits and the
 respective USMS districts that fall within the circuit court structure.




        14 When fully staffed, each team will consist of one Intelligence Research
 Specialist and one Criminal Investigator.



 U.S. Department of Justice                                                                           10
 Office of the Inspector General
 Evaluation and Inspections Division
Intelligence Branch

       The Intelligence Branch is responsible for the collection and review
of information and intelligence from USMS districts, through its liaisons
with other federal law enforcement entities, and from other sources.
Additionally, this branch is responsible for oversight of the USMS
program involving its representatives assigned to the Federal Bureau of
Investigation’s (FBI) Joint Terrorism Task Forces (JTTF). 15

       As of July 2007, the Intelligence Branch had six full-time staff
assigned. One Branch Chief and a JTTF Program Coordinator operate
out of USMS headquarters. In addition, four Inspectors were assigned as
full-time liaisons with other federal law enforcement entities. These
Inspectors coordinate with the FBI’s National Joint Terrorism Task Force;
the FBI Washington Field Office’s JTTF; the Federal Bureau of Prisons’
Sacramento Intelligence Unit; the Supreme Court Police; the U.S. Capitol
Police; the District of Columbia Metropolitan Police Department; and the
Department of Homeland Security Office of Intelligence and Analysis. 16

       In addition to assigning full-time liaisons to these law enforcement
agencies, the USMS also has established other contacts and working
relationships to obtain and share information with the U.S. Secret
Service; the Central Intelligence Agency; the National Security Agency;
the Department of State’s Diplomatic Security Service; the Defense
Intelligence Agency; the Pentagon Force Protection Agency; the Drug
Enforcement Administration; the Bureau of Alcohol, Tobacco, Firearms
and Explosives; the Federal Air Marshal Service; the Transportation
Security Administration; Immigration and Customs Enforcement;
Customs and Border Protection; and numerous state and local fusion
centers, such as those in Virginia, New York, and Texas. 17

        15 In September 2006, the USMS formalized its JTTF Program to collect and

disseminate pertinent and timely intelligence to best support USMS core missions and
programs. There are currently over 100 FBI JTTFs operating throughout the United
States. Each JTTF includes members from federal, state, and local law enforcement
organizations. The JTTFs are intended to enhance the collection and sharing of
information and intelligence, and to work on specific FBI domestic and international
terrorism investigations. The USMS began participating on JTTFs in July 2001 when it
entered into a Memorandum of Understanding with the FBI.

       16 One additional position is assigned to the Department of Homeland Security
and reports directly to the Deputy Assistant Director for the JSD.

       17 Fusion centers blend relevant law enforcement and intelligence information

analysis and coordinate security measures to reduce threats in local communities.
                                                                                (Cont.)

U.S. Department of Justice                                                          11
Office of the Inspector General
Evaluation and Inspections Division
Threat Management Center

       At the time of the OIG review, the Threat Management Center was
not yet operational, but was scheduled to initiate operations on
September 14, 2007. It is organizationally located in the JSD and will
eventually be staffed 24 hours a day. The Threat Management Center
will initially be staffed by Investigations Branch personnel, but six
Inspector positions have been requested for FY 2008 to permanently staff
the Threat Management Center. The Threat Management Center is
housed within a sensitive compartmented information facility so that
information classified as Top Secret can be analyzed and retained. The
Threat Management Center will serve as the single point of entry for the
reporting of all threats, inappropriate communications, incidents and
suspicious activities from the 94 USMS districts and 12 judicial circuits
as well as from other law enforcement agencies. According to the USMS,
the Threat Management Center will conduct record checks and provide
recommendations for protective investigations to the districts. Once the
Threat Management Center is operational, the USMS will internally
review and assess its capabilities, then create, revise, and formalize the
necessary policies and procedures to ensure its effective operation.

USMS District Operations

        When a USMS district has either identified or had an inappropriate
communication or threat reported to it by a member of the judiciary, the
initial information gathered during the protective investigation is entered
into WIN/JDIS and forwarded electronically to the OPI for research and
analysis. The districts are responsible for conducting protective
investigations and determining the threat management strategy needed
to reduce or control any potential risk to protectees. The district offices
are also responsible for making the final assessment of the level of risk.

      In the districts, Judicial Security Inspectors oversee the protective
investigations, which are conducted by District Threat Investigators.

Judicial Security Inspectors

      In FY 2002, Congress appropriated funding for hiring 106 new
Judicial Security Inspector positions within the 94 judicial districts and


According to the Department of Homeland Security, fusion centers provide critical
sources of unique law enforcement and threat information and facilitate sharing
information across jurisdictions and function.



U.S. Department of Justice                                                          12
Office of the Inspector General
Evaluation and Inspections Division
the 12 circuit courts. 18 Judicial Security Inspectors are senior-level
Deputy Marshals that:

       •   investigate or supervise protective investigations conducted by
           District Threat Investigators involving threats to the judiciary;

       •   assist the district in planning for all high-threat trials and
           events;

       •   assist in the preparation of operational plans and security at
           district off-site judicial events;

       •   conduct security briefings and training for members of the
           judiciary;

       •   conduct off-site security briefings and reviews for members of
           the judiciary; and

       •   act as the USMS contracting officer’s technical representative
           for the Court Security Officer contract to monitor compliance
           and performance standards in their respective districts.

District Threat Investigators

      The District Threat Investigators, in consultation with the district
Judicial Security Inspectors, conduct protective investigations into
inappropriate communications or threats made against USMS protectees.
The District Threat Investigator’s primary goal is to devise and implement
a threat management strategy to mitigate any potential risk to the
protectee.

       According to the USMS, as of March 2007 there were 338 Deputy
Marshals who had been designated as District Threat Investigators in the
94 districts. The number of District Threat Investigators in a district
ranges from 1 to 10 with an average of 4 per district. Because of staffing
levels, multiple USMS missions, and variations in the number of reported
threats in a district, in some districts the District Threat Investigator
duty is a collateral duty. Of the 338 District Threat Investigators, 55


       18 The 94 district Judicial Security Inspectors report directly to the U.S.

Marshal or Chief Deputy U.S. Marshal in their assigned district. The 12 Circuit Court
Inspectors report to the Chief, Office of Protective Operations, Judicial Security
Division. The Judicial Security Inspector Program became operational in May 2003.



U.S. Department of Justice                                                          13
Office of the Inspector General
Evaluation and Inspections Division
have been designated as full time, and 283 performed the District Threat
Investigator function as a collateral duty.

USMS Threat Management Program

      Upon being notified of a suspicious activity, event, or
communication, the District Threat Investigator makes the initial
determination whether it meets the criteria of an inappropriate
communication or threat. If it meets the criteria, the district Judicial
Security Inspector and District Threat Investigator work as a team to
implement the USMS’s threat management program, which involves
three elements:

       •   A protective response – The threat management process begins
           with the district determining and taking the necessary
           measures to ensure the protectee’s immediate safety.

       •   A protective investigation – During a protective investigation, the
           District Threat Investigator and Judicial Security Inspector
           attempt to identify the subject, assess the threat, and mitigate
           the risk of harm to the protectee. The districts make the
           operational and tactical decisions involving the protection and
           management components of each threat case.

       •   A threat assessment – The district notifies the OPI of
           inappropriate communications and threats by opening a case
           file in WIN/JDIS and entering information gathered during the
           protective investigation. Based on the investigative information
           provided, the OPI conducts research and analysis to compare
           and evaluate the current inappropriate communication with the
           characteristics of similar types of closed threat cases. The
           resulting OPI threat analysis provides data to assist the district
           in determining the appropriate threat level and protective
           response. The district makes the final threat assessment.

Interim Protective Measures

      While an inappropriate communication is being assessed by the
OPI, the district determines what level or type of protective response is
appropriate based on the information known. Some steps the district
may take are:

       •   briefing the protectee (and family) on security awareness issues;


U.S. Department of Justice                                                  14
Office of the Inspector General
Evaluation and Inspections Division
       •    updating or completing a judicial personal profile with details
            about the protectee that the district may need to provide
            protection;

       •    initiating or updating a residential security survey;

       •    installing electronic security measures; or

       •    arranging for local law enforcement to conduct or increase
            patrols around the protectee’s residence.

       After assessing the risk and using risk-based standards, USMS
district officials also may initiate a protective detail. The districts are
responsible for providing Deputy Marshals, administrative support, and
any other resources needed during the first 72 hours of a protective
detail. If the protective detail lasts longer than 72 hours, the districts
may request additional staffing and funding from the JSD’s Office of
Protective Operations. The office reviews protective detail funding and
staffing requests to ensure the appropriate protective and investigative
measures are maintained.

Protective Investigations

       A protective investigation is the systematic collection and
assessment of available information to determine the individual’s or
group’s true intent, motive, and ability to harm or pose a threat to a
USMS protectee. A protective investigation begins immediately at the
district upon receipt of an inappropriate communication or threat.

       The USMS and the FBI both have responsibility for assessing and
investigating threats. The USMS directives state that the USMS reports
all threats to the FBI, which has the primary responsibility for
conducting criminal investigations of threats to USMS protectees for the
purpose of prosecution. 19 The USMS conducts protective investigations
that focus on mitigating the potential for harm to a protectee, regardless
of the possibility for prosecution. If a protective investigation determines

       19  A criminal investigation focuses on the collection of evidence that shows that
the individual made a threat. The FBI conducts the criminal investigations, though in
some instances, it may decline to proceed and the USMS conducts the investigation. A
protective investigation by the USMS can run concurrently with a criminal investigation
and can continue after the criminal investigation is closed. The goal of a criminal
investigation is to prosecute, and the goal of a protective investigation is to mitigate the
threat.



U.S. Department of Justice                                                               15
Office of the Inspector General
Evaluation and Inspections Division
that a threat is likely to be carried out, the district develops a plan that
incorporates a range of tactics and strategies designed to identify, assess,
and mitigate any potential risk of harm to a protectee. Tactics may
include:

       •    arresting the individual,

       •    having the individual committed for psychiatric care or
            observation,

       •    ensuring the individual is taking prescribed medications,

       •    obtaining a restraining order, or

       •    monitoring the individual through frequent contact (in-person
            or telephonic).

Threat Assessments

       The district prepares an investigative report on a USM-550 form
and forwards it to the OPI for research and analysis to assist the district
in making an assessment. 20 District personnel also create a case record
and enter investigative information and any details, including any
supporting documentation (such as photographs), directly into
WIN/JDIS. Once the initial case information is in WIN/JDIS, the district
uses the system to manage and monitor the progress of the case.
District management can also use the system to track and generate
reports of how many inappropriate communications have been received,
investigated, and closed. Any subsequent information gathered by the
district during the protective investigation is entered into the WIN/JDIS
record and is also provided to the OPI on a USM-11 form. 21

       OPI staff may be asked to confirm that the communication meets
the criteria required for an inappropriate communication. If the criteria
are met, the OPI begins its analysis (see Figure 3). The process starts
with queries of specific agencies and databases, including the U.S. Secret
Service’s threat database (called TAVISS), to determine whether the

       20  The USM-550 Preliminary Threat Report is a form is submitted by the district
in conjunction with a WIN/JDIS entry during the process of initiating a protective
investigation. The USM-550 supplements the data in WIN/JDIS so that the OPI can
conduct a more thorough threat analysis.

       21 The USM-11 Report of Investigation is a form submitted by the district to

update information on a previously reported inappropriate communication.



U.S. Department of Justice                                                            16
Office of the Inspector General
Evaluation and Inspections Division
individual or group has made previous threats or has any law
enforcement records. These queries may provide information about the
individual’s or group’s possible intent, motive, or ability to carry out the
threat.

       JSD managers told us that for cases that are “more serious or
threatening,” they have established a “major case category.” Some of the
criteria for these cases are (1) the threatener continues to demonstrate
intent, motive, and ability; (2) the threatener is being released from
custody following a conviction for threats, stalking, or assault on a USMS
protectee; or (3) the threat involves mass mailings crossing over several
districts. For major cases, the district closes the case in WIN/JDIS, and
OPI staff reopen the case using a new case code and assume
management of the case. OPI staff routinely notify other districts of
threateners that send mass mailings and that are active in multiple
districts.

                               Figure 3: OPI Threat Assessment Process
   Threat Received                               OPI Analysis                   Reports to District

                                                                                  OPI team completes the
        District initiates         OPI team conducts queries in various
             threat                                                               assessment checklist in
                                databases for information about the target,            the case file
       investigation and       subject, associates, and related organizations
        assigns priority
       level for analysis

                                                                                Draft transmittal sheet and
                                       Review OPI files and conduct all         submit to OPI management
                                         source analysis for pertinent            for review and approval
  District inputs USM-550           information on the target and subject
     and related case
 documents into WIN/JDIS

                                            Contact district for                Transmittal sheet sent to
                                           additional information               the district with outcome
                                                 if needed
      OPI team reviews                                                                 of analysis
     case and discusses
      it with district staff


                                       Generate comparative analysis                   Case filed
                                         score and MOSAIC score
      Check criminal
      history in NCIC
                                             Update case in
                                               WIN/JDIS




Source: USMS




U.S. Department of Justice                                                                              17
Office of the Inspector General
Evaluation and Inspections Division
       The OPI conducts two computer-based analyses using the
information from the district and its database queries. The first analysis
is a comparative analysis that compares the case’s known characteristics
with previous threat cases maintained in the USMS’s historical threat
database. This database contains inappropriate communications and
threat cases that have been closed and assigned an outcome of false,
enhanced, or violent. The result of the comparative analysis is expressed
in a score that indicates how closely the characteristics of the case being
assessed match those of prior cases.

      The second analysis is called a MOSAIC assessment. Using the
investigative information to answer established questions about the case
being assessed, the OPI applies the MOSAIC proprietary software to
produce a numerical rating and information quotient. The numerical
rating is expressed on a scale of 1 to 10. The higher the rating, the more
the case under review resembles past cases that have escalated or
resulted in violence. The information quotient, which is expressed on a
scale of 0 to 200, is based on the number of questions that have been
answered by the investigation at that point. The more questions that
have been answered, the more reliable the result.

       Once the two analyses have been completed, the record in
WIN/JDIS is updated with the scores, and the results are sent to the
district. The two analyses should have similar outcomes. If the
comparative analysis score indicates low risk, then the proprietary
analysis score should indicate low risk as well. When the two analyses
do not show a similar outcome, the OPI can attempt to resolve the
disparity by requesting additional investigative information from the
district and reassessing the threat, or it can provide possible
explanations for the disparity to the district.

       The district can use the scores to help determine if the necessary
protective measures have been taken and if the protective investigation is
on the correct path. If significant new information on the case is
collected during the course of the protective investigation after the
assessment scores have been disseminated, the district can request that
the OPI reassess the threat. The USMS has indicated that both scores
are viewed as “tools” to assist the district in making a determination of
the potential risk the threat does or does not present to the protectee.

       The OPI expects to depart from reporting only the scores that
result from this process at the end of FY 2007. OPI officials said that
beginning in October 2007, they will work more collaboratively with the
districts on assessing threats over the length of the protective

U.S. Department of Justice                                              18
Office of the Inspector General
Evaluation and Inspections Division
investigations through an ongoing exchange of information between the
District Threat Investigator and the investigator/analyst team in the OPI.

March 2004 OIG Report on Judicial Security

      In our March 2004 report, we evaluated the USMS’s efforts after
September 11, 2001, to improve its protection of the federal judiciary.
We focused specifically on the USMS’s ability to assess threats and
determine appropriate measures to protect members of the federal
judiciary during high-threat trials and when they are away from the
courthouse. We found that:

       •   The USMS had placed greater emphasis on judicial security by
           hiring 106 Judicial Security Inspectors and increasing
           courthouse security.

       •   The USMS assessments of threats against members of the
           federal judiciary were often untimely and of questionable
           validity.

       •   The USMS had a limited capability to collect and share
           intelligence on potential threats to the judiciary from USMS
           districts, the FBI’s JTTFs, and other sources.

       •   The USMS lacked adequate risk-based standards for
           determining the appropriate protective measures that should be
           applied to protect the judiciary against identified potential risks
           during high-threat trials and when protectees are away from the
           courthouse.

Consequently, the OIG made six recommendations to the USMS:

       1. Ensure that all threats to the judiciary are assessed within
          established time frames.

       2. Update the historical threat database or develop a new database
          to perform comparative assessments.

       3. Assign full-time representatives to all 56 FBI field office JTTFs
          and ensure effective USMS liaison with other intelligence
          agencies.

       4. Create a centralized capability to identify, collect, analyze, and
          share intelligence.


U.S. Department of Justice                                                 19
Office of the Inspector General
Evaluation and Inspections Division
       5. Ensure that all Chief Deputy Marshals and all JTTF
          representatives have Top Secret clearances and ensure that
          each district has operational secure communication equipment.

       6. Revise USMS guidance to establish risk-based standards and
          require after-action reports for high-threat trials and protective
          details.

       The USMS concurred with all six of the recommendations and
during the next 2 years reported to the OIG the steps it had taken to
implement them. The USMS stated that it had revised its established
time frames for assessing threats; updated the historical threat database;
increased the number of liaisons with other law enforcement and
intelligence agencies and requested additional resources to increase
representation on the JTTFs; established an OPI; increased the number
of Top Secret security clearances and secure communications equipment
in the districts; and issued revised judicial security directives that
included risk-based standards and after action reports.




U.S. Department of Justice                                                20
Office of the Inspector General
Evaluation and Inspections Division
                     PURPOSE, SCOPE, AND METHODOLOGY
                            OF THE OIG REVIEW


       In this review, we examined the USMS’s progress since our March
2004 report in improving its capability to collect, analyze, and
disseminate information and intelligence related to protecting the
judiciary. This review also assessed the progress the USMS has made in
implementing corrective actions to address the recommendations made
in our March 2004 report. Lastly, this review examined the status of
initiatives or organizational changes that the USMS has recently
undertaken to improve its capacity to identify and respond to threats and
provide protection to the judiciary, including the installation of home
alarms for judges.

       As described below, the methodology used in this review included
interviews of USMS personnel and members of the judiciary. We also
conducted surveys of all federal judges and all Judicial Security
Inspectors. We attended a protective investigative training course
conducted by the USMS. We also reviewed USMS reported threat data
and documents related to judicial security.

Interviews

       To examine the USMS judicial security efforts and activities, we
interviewed USMS officials from headquarters, the JSD, and the
Investigative Services Division. We also interviewed officials outside of
the USMS. In total, we interviewed 29 individuals.

       At the USMS headquarters, we interviewed the USMS Director, the
Deputy Director, and the Chief of Staff. At the JSD, we interviewed the
former and current Assistant Directors, the Deputy Assistant Director for
Judicial Services, and the Deputy Assistant Director for Judicial
Operations. Within the OPI, we spoke with the former and current
Chiefs of the OPI; the Assistant Chief, Investigations Branch; two
analysts and one Inspector assigned to the Investigations Branch; the
Assistant Chief, Intelligence Branch; the Joint Terrorism Task Force
Coordinator; and three Inspectors designated as liaisons to task forces
assigned to the Intelligence Branch. We interviewed three Chief
Inspectors assigned to the former Operational Support Team. We also
interviewed the Assistant Chief, Office of Courthouse Management,
responsible for the Home Intrusion Alarm Initiative. At the Investigative
Services Division, we interviewed the Deputy Chief of the Technical
Operations Group and the Chief of its Tactical Support Branch.

U.S. Department of Justice                                                  21
Office of the Inspector General
Evaluation and Inspections Division
       Outside of the USMS, we interviewed the federal judge who
currently chairs the U.S. Judicial Conference Committee on Judicial
Security and the federal judge who formerly chaired the U.S. Judicial
Conference Committee on Security and Facilities. At the Administrative
Office of United States Courts (AOUSC), we interviewed the Assistant
Director, Office of Facilities and Security, and the Chief and the Deputy
Chief of the Court Security Office.

Surveys

      The OIG surveyed all federal judges and 82 Judicial Security
Inspectors assigned to USMS district offices.

Judicial Survey

      With the cooperation of the AOUSC and the federal judiciary, we
conducted a voluntary web-based survey that was e-mailed to 2,141
federal judges. Prior to distributing the survey, we received comments or
suggested additions from the USMS, the AOUSC, and 10 federal judges
serving on the Judicial Conference Committee on Judicial Security. The
OIG conducted the survey to obtain the federal judiciary’s views and
opinions on the current status of security provided to federal judges.
The OIG also sought judicial observations and perspective that would
provide the USMS with ideas, methods, or data for improving judicial
security. The survey contained 29 questions. The survey period started
on October 16, 2006, and ended on November 3, 2006. Of the 2,141
federal judges, a total of 705 (32 percent) responded. 22 The judicial
survey results appear in Appendix II.

Judicial Security Inspector Survey

       We also conducted a telephone survey of 82 of the 92 USMS
district Judicial Security Inspectors. 23 The survey instrument asked for
each Judicial Security Inspector’s perspective regarding various policies
and procedures on threat investigations, protective details, and the
information they received from the OPI concerning judicial threat

        22 The total number of judicial responses was well above the 327 required for

statistical validity, based on a confidence level of 95 percent and a confidence interval
(margin of error) of ±5 percent.

       23 Two of the 94 district positions were vacant at the time of our survey. While

we contacted all 92 Judicial Security Inspectors, 10 did not respond to the survey.



U.S. Department of Justice                                                              22
Office of the Inspector General
Evaluation and Inspections Division
investigations and security operations. The survey contained 73
questions. The survey period started on November 24, 2006, and ended
4 days later. The Judicial Security Inspector survey results appear in
Appendix III.

Site Visits

      We attended the 40-hour USMS Protective Investigations Training
Program course conducted at the Federal Law Enforcement Training
Center in August 2006. The course content was designed to provide
Judicial Security Inspectors and District Threat Investigators instruction
in areas such as protective investigation policy and new USMS directives;
overviews of various USMS entities and their capabilities; reporting
requirements; and threat management strategies.

Data and Document Reviews

       We reviewed and analyzed reported threat data maintained by the
USMS in its WIN/JDIS database for FYs 2005, 2006, and the first half of
FY 2007. 24 After selecting a random sample from each fiscal year, we
reviewed the data to determine USMS adherence to its revised timeliness
standards for threat assessments. To calculate timeliness, we identified
the date that the OPI received the threat from the date embedded in the
assigned warrant number for each case and counted the number of days
between that date and the date when the OPI provided the district office
with the assessment results. Weekends and holidays were removed for
the analysis. The USMS’s established time standards, depending on the
level of threat, were used as the criteria for determining timeliness.

      We also reviewed relevant USMS Directives, policies and
procedures, manuals, training materials, clearance rosters, and
examples of OPI information products.




        24 We did not analyze the threat data for FY 2004 because the USMS used a

different timeliness standard then.



U.S. Department of Justice                                                          23
Office of the Inspector General
Evaluation and Inspections Division
                             RESULTS OF THE REVIEW


Assessing Reported Threats

       From the issuance of the OIG’s first report on judicial
       security in March 2004 through FY 2006, the USMS
       made little progress with improving its assessments of
       threats against the judiciary. The USMS did not meet its
       timeliness standards for conducting threat assessments,
       and over half of the threats reported by USMS districts
       were never assessed, resulting in a backlog of 1,190
       “pending” threats awaiting assessment as of October 1,
       2006. Moreover, the USMS did not track the timeliness
       of threat assessments.

       However, in early FY 2007, USMS headquarters initiated
       a review of the pending cases and assigned additional
       resources to complete the outstanding cases. By May
       2007, the USMS had eliminated the backlog of pending
       threat assessments.      The additional resources also
       enabled the USMS to assess new threat reports more
       quickly during the first half of FY 2007. Yet, USMS
       headquarters managers and district staff believe the
       current threat assessment process is of limited utility
       for protective investigations because it does not provide
       sufficient information about a threatener’s behavior.
       USMS managers told us they plan to change the threat
       assessment process in FY 2008.


      In our March 2004 report, the OIG determined that USMS
headquarters did not meet its timeliness standard of assessing threats
within 24 hours after receipt from the districts for 73 percent of the
threat assessments it conducted in FYs 2000 through 2003. To ensure
the most serious threats were assessed on a timely basis, after 2003 the
USMS began designating reported threats as either “expedite” or
“standard” and, in August 2004, the USMS established longer timeliness
standards of 3 business days for expedite cases and 7 business days for
standard cases. We also reported that the threat assessments were of
questionable validity.

      In this section, we examine the USMS’s effort to improve its
performance under its revised timeliness standards in FY 2005 and

U.S. Department of Justice                                            24
Office of the Inspector General
Evaluation and Inspections Division
FY 2006; an FY 2007 effort by the USMS to monitor timeliness and
resolve a large backlog of cases that accrued in FY 2005 and FY 2006;
and the USMS’s plans to revise the threat assessment process in
FY 2008 and improve the quality of its assessments.

Timeliness of USMS assessments of reported threats decreased during
FY 2005 and FY 2006.

      In FY 2005 and FY 2006, the USMS failed to improve the
timeliness of its threat assessments. We reviewed a sample of 568 of the
2,018 threats reported to USMS headquarters in FY 2005 and FY 2006.
We found that although the USMS extended its timeliness standard from
24 hours for all cases to 3 days for expedited cases or 7 days for
standard cases, the OPI failed to meet those standards in about two-
thirds of all cases in our sample. 25 Moreover, the USMS did not complete
threat assessments on more than half of all threats reported in FY 2005
and FY 2006, which led to a backlog of 1,190 “pending” assessments as
of October 1, 2006.

      For each year, we examined how many of the threat assessments
met the timeliness standard for the applicable category. We also
examined the average time it took the USMS to assess reported threats.
We found that the OPI took longer to process both expedited and
standard cases in FY 2006 than it did in FY 2005.

      Chart 2 illustrates the OPI’s improvement in assessing the reported
threats in our sample in FY 2005, FY 2006, and the first half of FY 2007.




       25 The USMS does not count weekends and holidays when determining

timeliness of the threat assessment.



U.S. Department of Justice                                                 25
Office of the Inspector General
Evaluation and Inspections Division
                       Chart 2: OPI Assessment of Reported Threats in
                                FY 2005, FY 2006, and FY 2007



                       FY 2005           FY 2006          FY 2007


                        141
     Assessments                                           217

      Completed
                                           56
                         79
                                           26               15

                         66


                                          200
     Assessments
    Not Completed




                Not Completed    Completed (Not Timely)   Completed (Timely)
       Source: OIG

      FY 2005. We selected a random sample of 286 threats reported to
the OPI in FY 2005 and found that the USMS had completed
assessments for 220 of the cases (77 percent). As of November 3, 2006,
when the USMS provided data on its operations to the OIG, the USMS
had still not conducted threat assessments on 66 of the cases
(23 percent), which remained in a “pending” status at the time of our
analysis. 26

      We next analyzed whether assessments were completed within
applicable timeliness standards based on the case category. Of the 286
cases, 14 were categorized as expedited and 195 were categorized as
standard. Eleven threats that had been processed and all 66 of the
pending cases were not categorized as either expedited or standard. We
found that 141 of the threats were assessed within the applicable 3-day



      26 The USMS uses the term “pending” to describe those cases for which the OPI

has completed no comparative analysis or MOSAIC assessments.




U.S. Department of Justice                                                       26
Office of the Inspector General
Evaluation and Inspections Division
or 7-day timeframe. 27 Another 79 threat assessments were completed
but not within the applicable 3-day or 7-day timeframe. 28 The 66 cases
that were pending as of November 2006 were at least 13 months old and
so failed to meet either timeliness standard.

      FY 2006. Our random sample of 282 cases reported to the OPI in
FY 2006 found that the USMS had completed assessments for only 82 of
the cases (29 percent). The remaining 200 threats (71 percent) were still
pending as of November 3, 2006. Of the 82 threats that had been
assessed, 9 were categorized as expedited and 73 were categorized as
standard. We found that 56 of the threats were assessed within the
applicable 3-day or 7-day timeliness standard. 29 Another 26 threats had
been assessed, but the assessment was completed later than the
applicable 3-day or 7-day standard. The 200 cases that were pending as
of November 2006 were at least 1 month old and so failed to meet either
timeliness standard.

       OPI managers attributed the increase in time to the increasing
number of reported threats and the OPI’s inability to hire additional
qualified analytical staff, specifically Intelligence Research Specialists.

The USMS made efforts to improve processing timeliness in FY 2007.

       In early FY 2007, the USMS initiated several actions to improve its
ability to monitor threat assessments and to resolve the backlog of 1,190
pending cases. An OPI manager told us that, beginning in FY 2007, the
USMS dedicated additional staff, including investigators, to perform
threat assessments. According to OPI management, the OPI had two
analysts conducting threat assessments in FY 2005 and 2006. A third
analyst was hired in late FY 2006. Also, the OPI began to identify and

       27 The 141 assessments completed within established timeliness standards in

FY 2005 included 13 of the 14 expedited cases that were assessed within 3 days
(average: 0.5 day) and 122 of the 195 standard cases that were assessed within 7 days
(average: 14 days). We also considered six of the uncategorized cases that were
assessed in under 7 days to have met the timeliness standard.

       28 This includes 1 threat categorized as expedited, 73 threats categorized as
standard, and 5 threats that were not categorized but that were not assessed within
7 days.

        29 The 56 assessments completed within established timeliness standards in

FY 2006 included 7 of 9 expedite cases that were assessed within 3 days (average: 2
days), and 49 of 73 standard cases that were assessed within 7 days (average: 19
days).



U.S. Department of Justice                                                             27
Office of the Inspector General
Evaluation and Inspections Division
process pending threat assessments that were still needed by the
districts and implemented procedures to begin monitoring the processing
of threat assessments. Because the actions taken by the USMS were
pertinent to addressing the problems we identified in our review of
FY 2005 and FY 2006 threat assessments, we expanded the scope of our
review to include the first half of FY 2007.

      Chart 3 illustrates how many days it took, on average, for the OPI
to assess each threat received in FYs 2005, 2006, and the first half of
2007, as reflected by our random samples.

      Chart 3: Average Number of Days for OPI to Assess Cases in
                FYs 2005, 2006, and First Half of 2007



                                    19
 20


 18


 16                 14


 14
                                                           Average number of days for
                                                           OPI to process EXPEDITE
                                                           cases
 12


 10                                                        Average number of days for
                                                           OPI to process STANDARD
  8                                                        cases
                                                   6
  6


  4                         2

           0.5                             1
  2


  0
          FY 2005         FY 2006        FY 2007


Source: OIG analysis of a random sample of cases provided by the USMS

      Processing of threat assessments improved. We found that the
actions taken by the USMS enabled it to assess reported threats more
quickly in FY 2007. According to USMS data, the districts reported 590
threats during the first two quarters of FY 2007. We randomly selected
232 cases for review and found that the USMS had conducted




U.S. Department of Justice                                                         28
Office of the Inspector General
Evaluation and Inspections Division
assessments for all 232 of the cases. 30 Further, our analysis showed that
93 percent of the threat assessments were completed within applicable
timeliness standards. Of the 232 threats, 3 were categorized as
expedited and all were assessed within 3 days. The remaining 229 were
categorized as standard, and 214 were assessed within 7 days. For our
FY 2007 sample of 232 cases, it took an average of 6 days to conduct a
threat assessment.

        The USMS eliminated its backlog of pending threat assessments.
On October 1, 2006, the OPI identified l,190 threats that had not been
assessed. The OPI contacted the districts that reported the threats to
determine the status of the investigations related to each of the 1,190
pending assessments. District personnel reviewed the cases and
informed the OPI whether each case had been closed or whether the
district still considered the case active and therefore still required a
threat analysis from the OPI. The OPI determined that analyses were
still required for 538 of the 1,190 cases and, by March 2007, had
completed the analyses and disseminated the results to the districts. For
the remaining 652 threats, the OPI determined that the districts had
already closed their investigations. These cases were then
“administratively closed” by the Assistant Director of the JSD. 31 This
effort was completed in May 2007, at which time the USMS no longer
had any pending threat analyses.

      The USMS began monitoring threat assessment timeliness and
quality in FY 2007. In response to the OIG’s March 2004 finding that
73 percent of threat assessments conducted during FY 2000 through
FY 2003 did not meet timeliness standards, the USMS stated:

       The USMS will be revising its policy on time frames for the
       ASU [Analytic Support Unit] to complete assessments. The
       new policy will establish criteria that categorize requests
       according to urgency. Once the policy is implemented,
       adherence to the time frames will be made a factor in
       the annual performance evaluations of the ASU staff.
       The USMS estimates that the new policy will be implemented
       by the end of August 2004. The USMS will also review the

       30 We originally selected 233 cases and found 1 case for which no assessment
was conducted. However, we determined that case to have been a reporting error and
excluded it from our sample.

     31 The administrative closure was annotated in the case file in WIN/JDIS and a

memorandum from the Assistant Director was placed in the actual case file.



U.S. Department of Justice                                                        29
Office of the Inspector General
Evaluation and Inspections Division
       workload of the ASU and will request additional resources
       during the FY 2006 budget process if necessary. 32 [emphasis
       added]

       Despite that plan, the USMS did not monitor the timeliness of
threat assessments during FY 2005 and FY 2006. The USMS also did
not modify WIN/JDIS to enable it to better manage threat assessment
processing. As currently configured, WIN/JDIS cannot be used to
automatically calculate elapsed time or determine whether the elapsed
time meets established standards because it does not contain dedicated
data fields for this information. 33 Because of WIN/JDIS’s limitations,
calculating the time taken to complete an assessment and determining
whether the assessment met USMS standards must be done manually. 34
Further, data needed to determine timeliness is often missing from
WIN/JDIS. For example, in our sample of 568 threats reported in
FY 2005 and FY 2006, 274 (48 percent) were not identified as either
expedited or standard cases.

        In late 2006, OPI management implemented procedures to
manually monitor the timeliness and quality of threat assessments.
Data from each case is now entered by the Inspector or analyst
responsible for the analysis into a spreadsheet for management review.
At the conclusion of the research segment of the threat assessment
process, the responsible staff initials a checklist maintained in the case
file to document that all steps required to complete the research have
been accomplished. OPI managers then review the case file to determine
the timeliness of the research, review all information from the district,
and direct the investigator or analyst to obtain any additional
information from the district deemed necessary for a comprehensive
assessment. After OPI management ascertains the research is adequate,
the OPI transmits the assessment scores to the originating district for
use in its protective investigation. OPI managers told us that they

       32  Prior to the establishment of the OPI in June 2004, analysts assigned to the
Analytical Support Unit within the Investigation Services Division were responsible for
conducting threat investigations at USMS headquarters.

       33 The information to calculate timeliness may be present, but the calculation
cannot be automated even when the information is included. For example, the date a
threat assessment is forwarded to the OPI is embedded within the case file number and
must be extracted. The case category and assessment completion date, if entered, are
contained (along with other information) in a text-based remarks field.

       34 The OIG manually calculated the number of elapsed days for each threat to

determine the number of days it took to complete each threat assessment.



U.S. Department of Justice                                                           30
Office of the Inspector General
Evaluation and Inspections Division
believe that the improvement in threat assessment timeliness in the first
half of FY 2007 is directly attributable to the implementation of this
oversight mechanism.

The USMS plans to revise the threat assessment process in FY 2008.

      During our review, USMS managers told us that threat
assessments produced under the current process were of limited utility
to support protective investigations in the districts because they do not
provide sufficient information about the threatener’s behavior. Further,
responses to our Judicial Security Inspector survey confirmed that threat
assessments infrequently provide information that affects how protective
investigations are conducted. Because of the deficiencies in the current
process, USMS management told us that they plan to change the threat
assessment process in FY 2008 so that it provides better information and
continuing support from the OPI to District Threat Investigators for the
duration of protective investigations. In the following paragraphs, we
discuss the perceptions expressed to the OIG regarding the usefulness of
the current threat assessment process and the USMS’s plans for
changing the process.

        We noted an apparent contradiction between our survey results
and actual OPI performance that we believe indicates that Judicial
Security Inspectors did not highly value the OPI’s threat assessments.
When we asked the Judicial Security Inspectors whether they received
threat assessments from the OPI in time to assist them in conducting
protective investigations, a large majority (80 percent) stated that they
did. 35 However, as we discussed previously, the OPI failed to complete
threat assessments on about half (1,190 of 2,018) of the threats reported
to it during FY 2005 and FY 2006. We believe the dissonance between
the Judicial Security Inspectors’ stated belief that they received timely
threat assessment results and the fact that they did not receive
assessments for half of the threats they reported to the OPI indicates that
Judicial Security Inspectors placed only limited value on threat
assessments in their protective investigations.

      The OPI is planning to implement a new threat assessment
process. In a memorandum dated March 30, 2007, the Assistant
Director of the JSD informed the OIG that the USMS will “move away
from MOSAIC” and comparative analysis to “concentrate on the behavior

       35 Only 6 percent stated that they did not receive results in time to be useful to

the protective investigation. The remaining 14 percent had no opinion.



U.S. Department of Justice                                                             31
Office of the Inspector General
Evaluation and Inspections Division
of subjects who make threats and inappropriate communications.” USMS
managers further explained that the OPI is starting to employ a more
collaborative method of working with the districts on protective
investigations, threat assessments, and case management. As
envisioned by USMS managers, the analytical steps carried out on
reported threats will be revised, and the extent and duration of the OPI’s
involvement in protective investigations will increase.

       Under the revised threat assessment process, districts will report
all suspicious activities, inappropriate communications, and threats to
the Threat Management Center. Once the initial records checks and
recommendations for a protective investigation are provided to the
district, the Threat Management Center staff will turn the case
coordination over to the Investigations Branch circuit team responsible
for protective investigations in its assigned circuits.

      When a case is turned over to the Investigations Branch, it will be
assigned to a team consisting of an analyst and an Inspector for
evaluation. Through the use of the protective investigation case
information supplied by the District Threat Investigator and further
research and analytical work, the Investigations Branch team will
develop a work product to send back to the district for consideration and
use in its investigation. As described by OPI managers, the process of
gathering information and providing feedback will continue until the OPI
and the district determine the case can be closed. 36

      While each protective investigation is unique, OPI managers told
us that they see the new process as an opportunity to further
standardize, over time, the protective investigation process in each of the
94 districts. For example, the OPI will request that each District Threat
Investigator provide certain core information to answer specific analytical
questions so that higher-quality assessments can be produced. Because
the OPI will ask the District Threat Investigators to obtain and provide
consistent and complete investigative information, officials expect some
uniform investigative work will be performed in each case. Further, the
continuing dialogue between the OPI and the districts during the course
of protective investigations could result in more consistently useful
threat assessment products for the District Threat Investigators. The
new process is also expected to achieve more consistent reporting of
judicial security information. Under the existing threat assessment

       36 The final determination to close a case will remain the district’s

responsibility.



U.S. Department of Justice                                                     32
Office of the Inspector General
Evaluation and Inspections Division
process, districts simultaneously notify the OPI and create a record in
WIN/JDIS only after they determined that an event meets the criteria for
an inappropriate communication. Under the new process, the districts
will be expected to report any event or issue involving judicial security
(including all suspicious activities, inappropriate communications, or
threats) to the Threat Management Center as soon as possible.

      The new threat assessment process OPI managers described to us
could improve the ability of the USMS to assess and respond effectively
to threats against the judiciary. However, OPI has not yet developed
formal plans with defined milestones, tasks, and outcomes. OPI
managers told us they have decided to eliminate the 3-day and 7-day
timeliness standards. Instead, the Threat Management Center staff will
provide the results of their analyses to the districts verbally or by fax and
then follow up with a written response within 1 business day.

       In August 2007, JSD managers told the OIG that they have drafted
a new process for the Threat Management Center and an updated
protective investigation policy, and that they planned to distribute the
drafts to the districts. Because these drafts were not available for our
review, we cannot fully evaluate the USMS’s planning and
implementation of the new process or assess the potential for the new
process to improve the USMS’s ability to respond to threats against the
judiciary. The OPI needs to fully define the new process, provide
direction to the districts, and provide training to district and
headquarters staff involved in the judicial protection mission. 37




       37  Although the new process has not been fully defined, the USMS told us that
it has already conducted training on the behavioral aspects of this new approach. In
July and August 2006, the USMS conducted 4 separate 1-week Protective
Investigations Training courses focusing on behavioral methodologies of investigation
for 190 Deputy Marshals at the Federal Law Enforcement Training Center. These
seminars were provided by experts from the USMS, the Bureau of Alcohol, Tobacco,
Firearms, and Explosives, the FBI, United States Attorneys’ Offices, the U.S. Secret
Service, and the Diplomatic Security Service. The USMS conducted 2 additional
Protective Investigations Training courses for 96 Deputy Marshals in July 2007. JSD
managers stated that they are working with USMS staff assigned to the Training Center
to conduct four more courses in FY 2008.



U.S. Department of Justice                                                        33
Office of the Inspector General
Evaluation and Inspections Division
Identifying Potential Threats

     In response to the OIG’s March 2004 report, in June 2004
     the    USMS    established    the   Office  of   Protective
     Investigation to provide a centralized protective
     intelligence function for the judicial security mission.
     However, the USMS was slow to staff the protective
     intelligence function and has not developed a strategy to
     effectively collect, analyze, and share information on
     potential threats against the judiciary. Consequently, the
     USMS is still in the early stages of implementing a
     centralized program to collect information and analyze it
     to develop protective intelligence on potential threats.


       To identify and address the risk posed by individuals or groups
who may not make overt threats to the judiciary in advance of an attack,
in March 2004 the OIG recommended that the USMS create a centralized
capability to collect, analyze, and share intelligence on potential threats.
In 2005, separate reviews conducted by an Attorney General Working
Group and a USMS committee examined the USMS judicial security
mission and also recommended improvements to the USMS’s protective
intelligence capabilities. (See the text box on the next page for details.)

       Our current review found the USMS is making slow progress at
implementing a protective intelligence function to identify potential
threats. Three years after the OPI was established, it still lacks the staff
needed to gather and analyze information to effectively develop protective
intelligence. During the past 3 years, the USMS has made some
improvements to its capacity for collecting information, including secure
equipment and a new facility for working with classified information.
However, the OPI still does not systematically collect and analyze
information from its districts; from other federal, state, and local law
enforcement agencies; or from the courts to produce protective
intelligence about potential threats to the judiciary. Although the
Assistant Director of the JSD identified a wide range of capabilities
scheduled to be implemented in the Intelligence Branch over the next 2
years, the OPI lacks plans for achieving these capabilities.




U.S. Department of Justice                                               34
Office of the Inspector General
Evaluation and Inspections Division
             Two 2005 Reports Identify the Need to Improve
              the USMS’s Protective Intelligence Capability

        In 2005, the Department and the USMS conducted separate reviews of the
USMS judicial security mission and made recommendations for improving the
protective intelligence function to identify potential threats.

        Attorney General Judicial Security Working Group. In a June 2005 report, this
Working Group called for the USMS to develop “a first-rate system of intelligence
gathering and threat assessment which the Marshals Service currently lacks” and
recommended improvements in information sharing with the judiciary and other law
enforcement agencies. On September 15, 2005, the Attorney General informed the
Chairman of the Executive Committee of the Judicial Conference of the United States
that he had directed that the USMS implement the Working Group’s key
recommendations. Specifically, he stated that he directed the USMS to increase the
OPI’s staff and resources “to enhance the USMS’s ability to collect, analyze and store
and retrieve intelligence and information, and to share that intelligence and
information promptly and effectively within the USMS and with our Federal, state and
local partners.”

       USMS Judicial Threat and Analytical Assessment Commission. In the fall of
2005, the Acting Director of the USMS established the Commission and directed it to:

       assess the current methodology and capability of [the USMS’s] judicial
       threat intelligence and protective investigation programs; to determine
       what support services and assessment activities are needed for field
       managers to make informed decisions regarding judicial security
       operations; and to make substantial recommendations regarding
       policies, process, and functions of the newly developed Office of
       Protective Intelligence.

In December 2005, the Commission made 22 recommendations, including that the
USMS provide additional staffing for the OPI; that the OPI work closely with federal,
state, and local law enforcement, including full-time USMS representation with Top
Secret clearances on JTTFs; and that the USMS provide the OPI with the equipment
necessary to receive and transmit classified information expeditiously.




      Developing a protective intelligence function is essential to meeting
the security risks identified by judges and a Department study. To
determine how federal judges viewed the risks associated with potential
threats, we surveyed them about the types of threats that pose the
greatest risk. In response, 527 out of 696 (76 percent) respondents
reported that the unknown general danger associated with being a
federal judge posed the greatest risk. In contrast, only 134 out of 696
(19 percent) reported that the known threat posed the greatest risk. The
results of our survey are consistent with a 5-year study by the
Department of Justice and the U.S. Secret Service of 83 individuals who


U.S. Department of Justice                                                              35
Office of the Inspector General
Evaluation and Inspections Division
attacked or approached to attack a prominent public figure. This study
documented that less than 10 percent had communicated a direct threat
to their targets or a law enforcement agency. In the following sections,
we discuss the efforts of the USMS to develop its capability to identify
potential threats to the judiciary.

Three years after the USMS established the Office of Protective
Intelligence, it is still not fully staffed.

        In response to an OIG recommendation, on May 14, 2004, the
USMS reported that it would establish the OPI on June 1, 2004, in the
JSD. The OPI was directed to collect, analyze, and disseminate all
intelligence relating to the safety of USMS protectees, employees,
facilities, and missions. The OPI staff consisted of a Chief, three
Criminal Investigators, and one Intelligence Analyst. In addition, the
USMS stated that “a number of analysts from the Analytical Support
Unit” would be reassigned to the office shortly thereafter. The USMS
reported that the OPI’s priorities were to (1) immediately develop a plan
to transfer all threat analysis responsibilities from the Analytical Support
Unit to the OPI, (2) prepare and propose an organizational and staffing
plan, and (3) assist in preparing an FY 2006 budget submission that
supported the creation and continuity of the OPI.

       On April 26, 2005, the USMS stated to Congress that it had
established the OPI “to analyze and disseminate protective intelligence,”
but added the caveat that “the availability of resources will determine the
rate of progress with regard to staffing the office.” 38

       On May 13, 2005, the OIG met with the Chief of the OPI to discuss
the staffing and implementation of the office. We found that the assigned
staffing level remained at the five positions that were transferred to
create the office in June 2004. In July 2005, the USMS transferred
responsibility for assessing reported threats from the Analytical Support
Unit in the Investigative Services Division to the OPI. From May 2005
through July 2007, the USMS increased the OPI’s staffing to 21, with 2
applicants under consideration. The additional resources were primarily
assigned to the OPI’s Investigations Branch, where they were directed at
assessing reported threats, including the large backlog of pending
assessments that accumulated in FY 2005 and FY 2006. The OPI only

        38 Statement of the United States Marshals Service before the Subcommittee on

Crime, Terrorism, and Homeland Security, Committee on the Judiciary, House of
Representatives, concerning H.R. 1751, The Secure Access to Justice and Court
Protection Act of 2005, April 26, 2005.



U.S. Department of Justice                                                        36
Office of the Inspector General
Evaluation and Inspections Division
recently began to dedicate staff to the collection, analysis, and
dissemination of intelligence related to potential threats. According to
JSD managers, when the Threat Management Center becomes
operational and can receive classified information, more Intelligence
Research Specialists will be assigned to the Intelligence Branch. OPI will
assign dual responsibilities to other Intelligence Research Specialists to
monitor classified intelligence and work protective investigations.

      Within the OPI, the Intelligence Branch is responsible for collecting
and analyzing information to develop protective intelligence on potential
threats. As of July 2007, it was staffed by a branch chief, a JTTF
program coordinator, and four Inspectors who serve as liaisons to other
federal law enforcement agencies. However, no Intelligence Research
Specialists were assigned to the Intelligence Branch. 39 Since the
establishment of the OPI in June 2004, the USMS has increased from
three to five the number of Inspectors assigned as full-time liaisons to
other federal law enforcement agencies to collect information on potential
threats to the judiciary. 40 In March 2007, the Assistant Director of the
JSD told the OIG that the USMS plans to increase the number of liaisons
assigned to other agencies further by FY 2009 if the JSD receives
additional resources. JSD managers are developing reporting
requirements for the liaisons, but they told us that the requirements will
not be formalized or distributed until after the Threat Management
Center is operational.

       In addition, the USMS has not assigned full-time representatives to
all JTTFs to improve access to information and intelligence related to
judicial security. Assigning full-time representatives to all 56 FBI field
office JTTFs was recommended in our March 2004 report. It was also
recommended by the Attorney General’s Working Group, and the USMS’s


       39  OPI managers stated that the Intelligence Research Specialists in the
Investigations Branch were available to assist the Intelligence Branch as needed to
conduct research and disseminate information.

       40 The three liaisons that existed when the OPI was started were assigned to the
Federal Bureau of Prisons’ Sacramento Intelligence Unit, the Central Intelligence
Agency, and the FBI’s National Joint Terrorism Task Force. As of September 2006, the
USMS had cancelled the liaison position at the Central Intelligence Agency, but
maintained full-time liaisons to the Department of Homeland Security and the FBI’s
National Joint Terrorism Task Force and the Washington Field Office. The USMS also
assigned a Senior Inspector to serve as a liaison to the Supreme Court Police, the U.S.
Capitol Police, and the Metropolitan Police Department.




U.S. Department of Justice                                                            37
Office of the Inspector General
Evaluation and Inspections Division
Judicial Threat and Analytical Assessment Commission in 2005. 41 The
FBI has since increased the number of JTTFs to 101. The USMS actually
reduced the number of full-time JTTF representatives from 25 to 17 after
the issuance of our March 2004 report and reduced the number of part-
time JTTF representatives from 25 to 23. During this period, USMS
districts also began assigning liaisons to JTTFs. Unlike full- or part-time
representatives, these liaisons do not work on a JTTF and do not have
direct access to FBI databases. As of July 2007, USMS districts had
assigned 39 liaisons to JTTFs. The USMS JTTF program coordinator in
the OPI’s Intelligence Branch monitors the program and receives and
disseminates information, but has no operational authority over the
representatives and liaisons the districts have assigned to the JTTFs.
These representatives and liaisons report to the district management that
assigned them.

The USMS improved its capacity                  Judicial Security Information From JTTFs
for working with classified
                                               •   A USMS JTTF representative reviewed an
information.                                       FBI report and concluded that several
                                                   suspect individuals had crossed the U.S.
      To operate an effective                      southern border and were heading to a
protective intelligence function,                  city where a high-threat terrorism trial
USMS staff must have appropriate                   was being held. This information was
                                                   forwarded to the affected USMS district,
security clearances and the                        which further coordinated trial security
equipment and facilities required to               with the FBI.
store and work with classified
                                               •   A threat against a U.S. Attorney was
information. 42 We determined that                 brought to the attention of a USMS JTTF
since our 2004 report, the USMS                    representative by a JTTF member from
has increased the number of staff                  another agency. He immediately reported
with Top Secret clearances:                        the incident to the OPI.


       •    In 2004, 72 of 94 Chief Deputy Marshals (76 percent) had Top
            Secret security clearances. By February 2007, all 94 Chief
            Deputy Marshals had Top Secret clearances.


       41  In March 2004, the OIG recommended that the USMS assign full-time
representatives to all 56 FBI field office JTTFs. The Attorney General’s Judicial Security
Working Group report made a similar recommendation that the Director of the USMS
should strive to staff all of the JTTFs. In December 2005, the Judicial Threat and
Analytical Assessment Commission report also recommended that the USMS assign
full-time representatives to each of the 56 FBI field office JTTFs.

       42 In our March 2004 report, we recommended that the USMS require that all

Chief Deputy U.S. Marshals and USMS JTTF representatives have Top Secret
clearances and that each district have secure communications equipment.



U.S. Department of Justice                                                             38
Office of the Inspector General
Evaluation and Inspections Division
       •    In 2004, 33 of 50 USMS JTTF representatives (66 percent) had
            Top Secret security clearances. As of February 2007, 37 of 43
            full- and part-time JTTF representatives (86 percent) had Top
            Secret Clearances.

       •    As of February 2007, 29 of 37 new JTTF liaisons (78 percent)
            had Top Secret clearances; 70 of 91 district Judicial Security
            Inspectors (76 percent) had Top Secret clearances; and 17 of 18
            OPI employees (94 percent) had Top Secret clearances.

       The USMS also improved the facilities and equipment it has to
work with classified information. In August 2003, 51 of the USMS’s 94
districts had secure telephones for communicating classified information.
By April 2005, the USMS reported to the OIG that all 94 districts had
secure telephones. Also, as of July 2007, the USMS was nearing
completion on construction and accreditation of a Threat Management
Center housed in a sensitive compartmented information facility. The
Threat Management Center will provide the OPI with the capacity to
electronically receive, access, analyze, and disseminate Top Secret
information related to judicial threats with other agencies.

The OPI has not developed the capability to systematically collect and
analyze information to identify potential threats to the judiciary.

       While the USMS has made some improvements to its capacity for
collecting information, we found that the OPI’s Intelligence Branch has
not yet implemented a protective intelligence function to systematically
collect and analyze information from the districts, from other federal,
state, and local law enforcement agencies, or from courts to identify
potential threats. 43 Specifically, the USMS has not defined the protective
intelligence products it needs and has not developed a strategy for
obtaining and analyzing information to produce and disseminate
protective intelligence products. For example, we found that:




       43  OPI analysts in the Investigations Branch have generated some information
products that are shared with the districts, including information bulletins, alert
notices, and foreign travel briefs. The OIG reviewed 14 products provided by the USMS
to determine whether they contained analytical information such as why the
information provided was relevant to the judicial security mission, how the information
could or should be used, and how the recipient should respond. We found that out of
the 14 products, 9 had an analytical section, and 4 of the analytical sections contained
analytical information.



U.S. Department of Justice                                                           39
Office of the Inspector General
Evaluation and Inspections Division
       •    The OPI does not analyze information it receives on reported
            threats to detect national or regional patterns. Analyses that
            identified trends in the types of USMS protectees receiving
            inappropriate communications, threat delivery methods, and
            the types of threateners could help the districts allocate
            resources or identify areas that need improvement to address
            potential threats.

       •    The OPI does not routinely update case information on
            individuals who already have threat cases in JDIS by searching
            the U.S. Secret Service’s threat database (called TAVISS) for
            new information.

       •    The OPI does not analyze data it collects on courthouse
            incidents. Judicial Security Inspectors and the Office of Court
            Security provide the OPI with reports of suspicious activities at
            and around federal courthouses. 44 However, the OPI does not
            analyze these reports to identify trends or patterns in
            suspicious activities that may indicate potential threats. JSD
            managers stated that they plan to initiate a Suspicious Activity
            Report database project between FY 2007 and FY 2009,
            depending on funding and staff availability. The project would
            merge the suspicious activity reports in the USMS’s Court
            Security System into JDIS to develop a database of suspicious
            activities that can be analyzed to identify patterns and trends.

       •    The OPI does not systematically collect and analyze judicial
            security-related information that is available in federal, state, or
            local court databases, such as the AOUSC’s Public Access to
            Court Electronic Records (PACER). 45 By analyzing PACER data
            and comparing it to case information in JDIS and TAVISS, the
            OPI could identify cases that may pose a risk for the federal
            judiciary. In our survey, federal judges identified the types of
            judicial proceedings that they believe generally pose a high risk

       44  In our survey of 82 Judicial Security Inspectors, 42 (51 percent) stated that,
in addition to reporting threats, they sent the OPI other types of judicial security
information, such as reports on indictments or arrests, courthouse incidents,
information on domestic terrorist groups, and suspicious activities.

          45 The PACER system provides real time public access to case and docket

information from Federal Appellate, District and Bankruptcy courts, including a listing
of all litigants and judiciary involved in the case, case related information such as the
nature of the suit, and the status of the case.



U.S. Department of Justice                                                             40
Office of the Inspector General
Evaluation and Inspections Division
           to judges’ personal safety, such as criminal cases involving
           gangs, organized crime, terrorism, and perjury (see Appendix II).

       •   The USMS has not issued guidance on the type of judicial
           security information to be reported by district office personnel.
           Although the USMS has issued guidance on reporting
           inappropriate communications and threats to the judiciary, it
           has not issued guidance for the districts on reporting incidents
           such as suspicious activities. This could enable the USMS to
           proactively identify potential threats and augment existing
           knowledge of known threats. The Attorney General’s Judicial
           Security Working Group report pointed out that because
           individuals who threaten public figures often switch targets, it
           is important to share information about individuals who have
           expressed violent intentions or an affinity for violence.

      In April 2007, the Assistant Director of the JSD acknowledged to
the OIG that the OPI was not focusing on potential threats because it still
did not have sufficient staff resources. Although the OPI has not
developed a protective intelligence capability to identify potential threats,
we found that it does use some external information sources to identify
potential risks to the judiciary. For example:

       •   The USMS liaison to the Federal Bureau of Prisons’ Sacramento
           Intelligence Unit obtains information on when serious offenders
           who have threatened public officials are to be released from any
           federal prison and sends it to the OPI to be forwarded to the
           districts. The districts use this information to decide what
           protective measures need to be employed to minimize the risk of
           harm to the federal judiciary.




U.S. Department of Justice                                                41
Office of the Inspector General
Evaluation and Inspections Division
                  Protective Intelligence: How State and Local Databases
                        Can Assist in Identifying Potential Threats

         State and local law enforcement and court databases are a potential source
 of information to develop protective intelligence on threats to the federal judiciary.
 Although the USMS is not systematically collecting and analyzing data from these
 sources, 52 percent of the USMS district Judicial Security Inspectors we surveyed
 said they routinely obtain state and local data as part of their protective
 investigations. We interviewed six Judicial Security Inspectors to obtain additional
 details on the databases they used and how they used the information in their
 investigations. The inspectors said that the information in these databases relates
 to bookings, misdemeanors, incident reports, court cases, and state prison
 records. The inspectors said they learned about the databases either through
 personal outreach or as a result of participating in a task force.

         The Judicial Security Inspectors reported using the information in the
 databases in several ways, such as background for interviews with individuals, to
 identify possible motives for inappropriate communications, to determine if a person
 had a history of misdemeanors, or to provide leads to other cases that might assist in
 the current investigation. For example:

     •        After an individual made an inappropriate communication to a judge, the
              Judicial Security Inspector used information from state databases to determine
              that the individual had made similar threats to other judges. The databases
              also provided information on the type and outcome of the individual’s cases at
              the state level, which provided the inspector with background on why the
              individual had filed a case in federal court.

     •        In another case, a state inmate sent a judge a letter written in blood. There
              was no information on the inmate in the USMS system. The Judicial Security
              Inspector contacted the state prison administrator’s office to learn whether the
              inmate had committed assaults on other individuals while in prison or had
              threatened state judges.

          Although the above examples involve cases in which threats were made, they
 demonstrate the types of information in state and local databases that a protective
 intelligence function could use to identify when individuals known to have threatened
 state or local officials become federal defendants or litigants.


         •      In July 2007, the USMS told the OIG that it had proposed to
                the FBI that some individuals who have threatened the
                members of the judiciary be included in the FBI’s National
                Crime Information Center (NCIC) pointer system. 46 Including

         The NCIC provides police officers and federal agents with criminal history and
         46

open warrant information. Although the criteria are not final, the USMS might add 100
to 200 individuals who have threatened the judiciary and who have a violent history,
are known to have taken any overt or covert action to carry out an assault or
assassination, or have recently purchased a weapon. The USMS would remove the
names when the individuals no longer pose a threat.



U.S. Department of Justice                                                                 42
Office of the Inspector General
Evaluation and Inspections Division
           these individuals would enable the USMS to monitor its most
           serious threateners, disseminate information about them to
           other law enforcement agencies, and learn when another law
           enforcement agency queries the NCIC for information on any of
           them. If the FBI approves the request, the USMS plans to add
           the data to the NCIC by the spring of 2008.

       •   In FY 2007, the USMS initiated a pilot program with the state of
           Virginia to establish a database of threateners that the USMS
           would enter into JDIS. In August 2007, OPI managers told us
           they were conducting a survey of Virginia law enforcement
           agencies regarding their responsibilities in investigating threats
           and inappropriate communications and their interest in
           participating in a database of these cases.

      In addition, in a March 30, 2007, memorandum, the Assistant
Director of the JSD identified other initiatives related to improving the
protective intelligence function that the USMS plans to accomplish by
FY 2010. The memorandum appears in Appendix I. Regarding
protective intelligence, the Assistant Director stated that the USMS plans
to:

       •   formalize procedures and initiate operation of the Threat
           Management Center;
       •   expand and finalize the OPI website;
       •   establish, as a long-term initiative, a Suspicious Activity Report
           project to collect, store, and analyze information on suspicious
           activities other than inappropriate communications;
       •   complete, as a short-term initiative, modifications to JDIS and
           move the Court Security Information System’s Suspicious
           Activity Report module into JDIS to capture incidents,
           demonstrations, and suspicious activity information;
       •   create a counter-surveillance or surveillance detection program
           to collect Suspicious Activity Report information;
       •   increase full-time liaison and detailee positions at other
           agencies, including the Department of Homeland Security, the
           Supreme Court Police, the Federal Protective Service, the
           Central Intelligence Agency’s Counter-Terrorism Center, the
           Diplomatic Security Service; and the Office of Director National
           Intelligence;
       •   finalize the polygraph policy for liaison positions;

U.S. Department of Justice                                                 43
Office of the Inspector General
Evaluation and Inspections Division
       •   procure a new OPI threat management database;
       •   procure additional analytical tools and search engines;
       •   establish a full-time information technology position or
           contractor to manage the sensitive compartmented information
           facility, classified systems, and OPI database;
       •   increase the Criminal Investigator staff, including District
           Threat Investigator, Intelligence Research Specialist, program
           analyst, and contractor positions (32 requested for FY 2009,
           with another 30 to be requested in FY 2010); and
       •   request additional JTTF positions in the districts and
           Secret/Top Secret computers where appropriate to receive
           classified information.

Also, in June 2006 JSD managers told us that the USMS intended to
initiate the development of a National Center for Judicial Security
(Center) in FY 2007 to serve as a repository for information pertaining to
the security of courthouses and the protection of judicial officials. The
National Support Division of the Center will be responsible for
information sharing initiatives such as the Virginia pilot project
discussed above. JSD managers have not identified a target date for
completion of the Center.

       While the OIG believes that the extensive initiatives would be
valuable, we also note that the OPI has not developed formal plans to
achieve these goals. Formalizing and fully defining the new process will
be required for the OPI to obtain resources to carry out its plans, as well
as to provide direction to the districts and provide training to district and
headquarters staff involved in the protective intelligence mission.




U.S. Department of Justice                                                  44
Office of the Inspector General
Evaluation and Inspections Division
Implementing Enhanced Security Measures

       Since our March 2004 report, the USMS has
       implemented additional security measures to protect
       the federal judiciary, including the congressionally
       authorized home alarm program. Working with a
       contractor, the USMS has installed about 95 percent
       of the home alarms requested by federal judges. The
       USMS is also enhancing its Technical Operations
       Group support of the judicial security mission and
       creating a Rapid Deployment Team program to
       respond to significant judicial security incidents.


Home Alarms for Federal Judges

      In May 2005, Congress appropriated $11.9 million to the USMS to
provide home intrusion detection systems requested by federal judges
and to pay for security measures used by the USMS to investigate and
counter threats to judges when they are away from a courthouse. 47 With
these funds, the USMS created the Home Intrusion Alarm Program to
improve the residential security of federal judges. In our survey, federal
judges’ responses on their perceptions regarding their security at home
highlighted the need for a home alarm program. When we asked federal
judges about their feelings of security in different settings, of the 696
who responded, only 114 (16 percent) felt very secure at home (see
Appendix II). In this section, we describe our examination of the USMS’s
implementation of the Home Intrusion Alarm Program, including the
USMS’s identification and installation of the initial group of alarms
pursuant to the legislation; the USMS’s management of the program; and
the USMS’s oversight of alarm monitoring and responses to alarm
activations.

      Identification and installation of initial alarm systems. On
June 14, 2005, the AOUSC sent a survey to federal judges to identify
those judges who wanted an alarm system installed in their homes. As
of July 8, 2005, 1,363 responded, of whom 1,176 replied that they
wanted home alarm systems installed. Judges could request that they
         47 The Emergency Supplemental Appropriation Act for Defense, the Global War on

Terror, and Tsunami Relief of 2005 (P.L. 109-13) provided funds for ongoing military and
intelligence operations in Iraq and Afghanistan and other selected international
activities, including tsunami relief and reconstruction.



U.S. Department of Justice                                                           45
Office of the Inspector General
Evaluation and Inspections Division
be included in the home alarm program after the survey as well. In
December 2005, the USMS directed each district to determine the
number of judges in their district who wanted home alarm systems. By
November 2006, a total of 1,616 judges had requested alarm systems.

      Contracting for the alarm systems and program initiation.
According to USMS documents, a solicitation for the home alarm
contract was issued in November 2005, and in December 2005 the USMS
awarded the contract to install the home alarms. However, the original
contract did not include monitoring services or maintenance, leading to
objections from the judiciary. Members of the Judicial Conference
Committee on Judicial Security contended that the supplemental
funding should pay for the monitoring and maintenance because both
were part of the USMS’s statutory responsibility for judicial security. In
late 2005, the USMS agreed and informed the AOUSC and Judicial
Conference Committee members that it would pay for central station
monitoring. 48 The contract was amended to reflect this change on
February 9, 2006. For each system installed in a judge’s home, the
USMS pays its contractor a monthly fee for monitoring the system. On
January 2007, the USMS added a maintenance component to its
contract and pays a monthly fee for maintenance of each system.

       In February 2006, the USMS and its contractor conducted pilot
installations of alarms in the homes of three judges in the Washington,
D.C., metropolitan area, and the contractor finalized its “pre-installation
plan” format as a result of the pilot test. Meanwhile, the USMS and the
AOUSC drafted policies and procedures to govern the administration of
the home alarm program. On March 27, 2006, the USMS and the
AOUSC issued a joint memorandum that launched the home alarm
program nationally.

      After the program was initiated, the cost of proposed alarm
systems submitted in April 2006 was almost 100 percent higher than
had been projected based on the three pilot installations. The higher
costs resulted from additional features included in the proposed systems
by contractor sales representatives who were not familiar with the scope
and parameters of the USMS program. For example, contractor
representatives were proposing to install higher-cost systems in some
residences, were proposing to use contracted system components
improperly (such as placing motion sensors in bathrooms), and were

       48   Central station monitoring occurs at the contractor’s facility in Aurora,
Colorado.



U.S. Department of Justice                                                              46
Office of the Inspector General
Evaluation and Inspections Division
proposing other features that were deemed redundant by the USMS. In
April 2006, the USMS and its contractor reviewed and revised 92 pre-
installation plans. To control costs, the USMS issued new guidance
regarding the types of equipment authorized for the USMS-funded
systems, directed Judicial Security Inspectors to take a more active role
in the installation process by inquiring about the components suggested
in the pre-installation plans, and directed additional reviews of pre-
installation plans.

      Also during the first months of installations, an issue arose
concerning contract termination fees for judges who were replacing
personal systems with USMS-provided systems. Initially, to participate
in the USMS program, judges were required to terminate their existing
contracts, which sometimes left judges responsible for paying early
termination penalties. In addition, the contractor believed that under the
terms of the December 2005 contract, it was obligated to install new
home intrusion systems, even if a judge was already a customer with the
contractor. These issues were resolved when the contractor agreed to
terminate existing contracts with those judges who had its system
without penalty. However, the contractor could not consider contracts
the judges had with other security vendors. The contractor was able to
use many of the existing home alarm components during installation of
the new system.

       Alarm installation progress. The USMS and its contractor follow a
three-step process for installing alarms. First, the Judicial Security
Inspector in the district and a representative from the contractor arrange
with the judge to conduct a home inspection to determine the system
requirements and select the appropriate alarm features for the judge’s
residence. Next, based on the inspection, the contractor and the Judicial
Security Inspector develop a proposed system configuration for
acceptance by the judge. The judge provides the contractor with
emergency contact information, and the Judicial Security Inspector
presents the proposal to USMS headquarters for review and approval.
Finally, after the system configuration is approved for installation by an
official at the home alarm program office at USMS headquarters, the
Judicial Security Inspector and the contractor contact the judge to
arrange a time to install the system. After the system is installed, the
judge is trained on how to use the alarm system.

       Between March 2006 and July 2007, 1,531 alarms were installed
in judges’ residences. Chart 4 shows the progress of the alarm
installations by month. Installations were prioritized within each


U.S. Department of Justice                                             47
Office of the Inspector General
Evaluation and Inspections Division
district, with judges that had no alarm system scheduled first, followed
by those that had pre-existing alarm systems.

             Chart 4: Number of Home Alarm Installations Completed

 1800



 1600
                                                                                                                                                 1531
                                                                                                                                         1467
 1400                                                                                                                          1413

                                                                                                                    1268
                                                                                                         1255
 1200

                                                                                                 1085
 1000                                                                                    1047



  800                                                                            795
                                                                         745

  600                                                           585


  400
                                                        361


  200
                                             177

              0         3        20
    0
                    6




                                        6




                                                                                                                                    7
                                                            6


                                                                    6




                                                                                             6


                                                                                                     6


                                                                                                                7




                                                                                                                                             7
          6




                            06




                                                                                     6




                                                                                                                           7
                                                   6




                                                                             6
                                      '0
                  '0




                                                          '0


                                                                  '0




                                                                                           '0


                                                                                                   '0




                                                                                                                                 '0


                                                                                                                                           '0
                                                                                   '0




                                                                                                            '0
        '0




                                                 '0




                                                                           '0




                                                                                                                       '0
                          r'

                                  ay
               ar




                                                          ly


                                                                  g




                                                                                          ov


                                                                                                  ec




                                                                                                                                ar


                                                                                                                                           ly
      b




                                                                                  ct




                                                                                                            n


                                                                                                                       b
                                             ne




                                                                          pt
                        Ap




                                                                Au
   Fe




                                                                                                         Ja


                                                                                                                    Fe
                                                       Ju




                                                                                                                                        Ju
                                                                                 O
                                                                        Se
              M




                                                                                                                               M
                                 M




                                                                                         N


                                                                                                 D
                                            Ju




Source: USMS

       The USMS Residential Program manager told us that he noticed
that some judges’ alarm systems had not been installed and sent a
message to all districts asking them to query the judges about whether
they still wanted the systems. The manager identified several reasons
that alarm installations had not been completed. According to the
manager, some of the judges indicated to the USMS that they no longer
want the home intrusion detection system and some are no longer
federal judges. In other cases, judges who requested systems either did
not respond to requests from the USMS to arrange a home inspection to
determine the system requirements or, after the system requirements
were determined, did not work with the USMS and the contractor to
establish a time for installation. According to the manager, several of the
judges told the USMS that they had not yet made up their minds about
whether they wanted the system installed. For these judges, the USMS
is holding open the request.


U.S. Department of Justice                                                                                                                       48
Office of the Inspector General
Evaluation and Inspections Division
       As of July 2007, the USMS reported that it had 67 outstanding
requests for alarm systems. Of the 67 requests, approximately 30 of the
judges are undecided and have yet to complete the home inspection or
installation, and the other 37 were requests for which installation was
proceeding.

       Monitoring and response to alarms. The USMS is not directly
notified of alarm events and receives limited reports of alarm occurrences
at judges’ homes. When an alarm is received, the contractor first calls
individuals identified by the homeowner on their Emergency Contact
List. If contact cannot be made, the contractor calls local law
enforcement for emergency response. Although the contractor provided
the USMS with monthly activity reports from March 2006 through early
2007, these reports did not include data on the number of reported
alarm events. 49

       As of July 28, 2007, the USMS was unable to respond to the OIG’s
request that it identify the number of alarm events that had occurred at
judges’ residences, including the number of alarms that were accidental
or did not require an emergency response, or the number of instances in
which the contractor notified local police to make an emergency
response. In response to our request during this review, the USMS told
us that it did not have an arrangement with the contractor to be notified
of alarm events at the residences of judges covered by the USMS
program.

       Initially, the USMS was included in the list of designated numbers
for several of the judges. When the contractor received an alarm notice
and was not able to contact anyone on the Emergency Contact List, the
contractor called the USMS Communications Center in Washington,
D.C., to report that an alarm had been received. According to the USMS
Residential Program manager, this presented a problem because the
USMS Communications Center is unable to provide immediate physical
responses to alarms in the residences of judges across the country. The
manager said that the USMS made a determination that it should not be
included on the Emergency Contact List used by the contractor. In the
event of an alarm, the contractor was directed to contact law
enforcement to ensure prompt emergency response for those residences.



       49 According to the USMS Residential Program manager, the monthly reports

submitted by the contractor contained data on the number of installations completed
and issues encountered, but not on alarm events.



U.S. Department of Justice                                                        49
Office of the Inspector General
Evaluation and Inspections Division
       Although the contractor is no longer providing the USMS with
reports summarizing alarm events, the USMS has implemented a policy
that its districts are to notify local law enforcement that they should be
contacted in the event of a “bona fide” alarm event. Specifically, the
Residential Program manager told us that he sent a notice to all districts
advising them to send letters to each local law enforcement agency that
provides coverage of an area in which a federal judge resides. In the
letter, the districts were to ask that any local law enforcement agency
responding to a call from an alarm at a judge’s residence inform the
USMS district of the nature of the alarm after it responded. However, the
USMS was not able to provide information on how many letters districts
have sent to local law enforcement agencies because it did not require
the districts to provide copies to headquarters.

       We have several concerns regarding the USMS’s approach for
learning of alarm events at judges’ residences. First, even if a local law
enforcement agency identifies that an emergency response is being
dispatched to a judge’s residence and subsequently notifies the USMS,
receiving such “after-the-fact” notifications delays the USMS’s awareness
of potential security events at judges’ residences. Second, the current
process places responsibility for notifying the USMS on a local police
department rather than on the company responsible for monitoring and
providing alarm services. Third, notifications from local police
departments may not be reliable, given the difficulty in keeping the
information on judges’ residences current as they move or retire and
given the variation in emergency dispatch systems from jurisdiction to
jurisdiction. We agree that the local law enforcement agencies should be
immediately notified by the contractor of all unresolved alarms so that
they can respond quickly. However, we believe that the contractor
should also notify the USMS immediately after notifying the local law
enforcement agency.

       An opportunity to modify the notification procedures currently
exists because the USMS is renegotiating its alarm contract. We believe
that the USMS should include as a term of its new contract that the
alarm contractor will, after making the required emergency notification to
local law enforcement agencies, also notify the USMS, either at the local
district office level or at headquarters, that it has referred an alarm at
judge’s residence to a local law enforcement agency.

      Judges’ satisfaction with alarm systems. In a survey the OIG
conducted in November 2006, 62 percent (281 of 454) of judges who
responded stated that they were very satisfied with the home alarm
system they received through the USMS, 26 percent (120) were

U.S. Department of Justice                                              50
Office of the Inspector General
Evaluation and Inspections Division
somewhat satisfied, 5 percent (22) were somewhat dissatisfied, and
1 percent (5) were very dissatisfied (see Chart 5 below).

              Chart 5: Judges’ Satisfaction With Home Alarms



                           5%   1%

                     6%




                                                   Very Satisfied
                                                   Somewhat Satisfied
                                                   Neither Satisfied nor Dissatisfied
            26%                                    Somewhat Dissatisfied
                                                   Very Dissatisfied


                                             62%




       Source: OIG Judicial Survey

       When we asked the judges in our survey to provide narrative
comments or suggestions on the home alarms systems, some of the
positive comments were:

       •   “Installation of the system was prompt. The contractor
           representatives as well as the JSI [Judicial Security Inspector]
           provided a full explanation of the system and its use. This was
           an upgrade from an existing system, and it provides greater
           level of protection.”

       •   “It substantially improved what I had. Only a few weeks after
           installation of the system, it detected vandalism (a broken
           window) while I was away at a conference. That would not have
           been detected without the enhancements of the USMS alarm
           system.”

       •   “The assistance provided by USMS was excellent and much
           appreciated. Did not feel at risk before, but feel even more
           secure now.”


U.S. Department of Justice                                                              51
Office of the Inspector General
Evaluation and Inspections Division
       •   “This is a very welcome addition to our security, and I
           appreciate the manner in which the USMS handled its
           implementation.”

       •   “It gives us a greater sense of security in our home. All Judicial
           Officers should have one.”

       •   “I think the system is an important part of the overall security
           provided to federal judges.”

       •   “I strongly endorse this program and appreciate it being
           provided to us. This system helps provide security beyond the
           normal 8:00 am to 5:00 pm office hours.”

       In contrast, some judges had negative comments about the home
alarm program. Many of these respondents stated that they had
incurred additional costs for features that were not covered under the
USMS contact, the contractor had not been responsive to service calls, or
that they had unanswered questions about the system. Below are some
of the other critical comments provided by judges.

       •   “I question whether there was appropriate oversight with
           respect to the nature and cost of the system provided.”

       •   “There does not appear to be any justification for the length of
           time that elapsed between the Congressional appropriation of
           funds to the awarding of the contract and the installation of the
           equipment.”

       •   “It has already malfunctioned once, causing a screeching beep
           in the middle of the night. I had to disassemble the system to
           get it to stop. And it took two months for [the contractor] to
           replace the defective parts.”

       •   “The system has so many features that it is complicated to
           learn. Like all new technology and security in particular, it’s
           only effective if people use it. More training for the judges on
           what features are most efficacious would be helpful.”




U.S. Department of Justice                                                    52
Office of the Inspector General
Evaluation and Inspections Division
The USMS Technical Operations Group

       The USMS is enhancing its Technical Operations Group’s (TOG)
support of the judicial security mission. The TOG is organizationally
located in the Investigative Services Division and is composed of an
electronic branch, an air surveillance branch, a tactical support branch,
and an analysis and intelligence group. In response to requests from
district offices, the TOG uses sophisticated technologies to provide
investigative and intelligence support, primarily for the USMS fugitive
apprehension mission. 50 The districts request judicial security
assistance from the TOG through the JSD’s Office of Protective
Operations. The judicial security assistance requested by district offices
can include providing technical equipment.

        In response to concerns of the Judicial Conference of the United
States and Congress, in September 2005 the USMS Director convened a
Judicial Security Technology Committee (Committee) composed of USMS
and AOUSC staff to review the agency’s technology assets and the ability
of the JSD to fully respond to the security needs of the judiciary. As part
of its review, the Committee also considered whether a single entity
within the USMS could support the missions of both the Investigative
Services Division and the Judicial Security Division. In January 2006,
the Committee reported that JSD headquarters personnel did not provide
sufficient support to the districts in accomplishing the judicial security
mission because:

       •    the JSD did not have sufficient assets in place to meet the
            security needs of the federal judiciary;

       •    the JSD’s technological equipment was outdated and not
            appropriately distributed around the country to allow for rapid
            deployment;

       •    the JSD had not established clear guidelines for requesting TOG
            assistance; and

       •    the USMS needed to eliminate the atmosphere of competition
            between the Investigative Services Division and the JSD.

       50  The Investigative Services Division oversees the enforcement of court orders,
fugitive investigations, execution of federal warrants, and operation and maintenance of
WIN/JDIS. It also provides electronic surveillance. In FY 2006, the TOG conducted
over 7,100 surveillance operations for over 2,900 fugitive cases, an increase of 6 percent
from FY 2005.



U.S. Department of Justice                                                            53
Office of the Inspector General
Evaluation and Inspections Division
The Committee recommended that the JSD transfer its judicial security
technology resources to the TOG and that the USMS expand the TOG’s
mission to more adequately address the judicial security mission.

      USMS efforts to enhance the capability of the TOG are ongoing. To
address the Committee’s recommendations, the USMS has provided
some additional resources to the TOG and requested additional
resources in its FY 2008 budget request. In September 2006, the JSD
transferred three personnel to the TOG, including a telecommunications
specialist who will manage the Court Security Officer radio program and
two criminal investigators. 51

      In its FY 2008 budget submission, the USMS requested funding for
six positions (five Deputy Marshals and one analyst) to assist in the
enhanced TOG support of the judicial security mission. The USMS also
requested $890,000 for TOG equipment and technology.

      The USMS has not implemented policies and procedures to guide
requests for TOG support. The Office of Protective Operations has not
yet developed a policy for referring district requests to the TOG. We
asked the JSD Assistant Director in April 2007 about the USMS
procedures for districts to request TOG assistance and criteria for
providing assistance to districts. He responded that everyone in the field
does not have to know what the TOG is capable of as long as
headquarters knows because headquarters makes the decisions about
approving the requests. Although the USMS has identified that the TOG
has limited resources to support judicial security, the JSD has not yet
developed criteria for prioritizing and referring district requests to the
TOG.

       Further, the TOG has drafted, but has not implemented, a policy
describing when and how its resources will be deployed. We asked the
TOG Deputy Chief in January 2007 about the review process for district
requests for TOG assistance since he mentioned that he expected an
increase in district requests as awareness of the TOG’s capabilities
becomes better known. The TOG had already identified the need for
written requirements and was drafting and forwarding the document for
ISD and JSD review and comment. In May 2007, the TOG provided the
OIG a draft of the document.

       51   The Court Security Officer radio program is funded by the Judicial Branch’s
AOUSC.



U.S. Department of Justice                                                           54
Office of the Inspector General
Evaluation and Inspections Division
      From September 2006 through June 2007, the TOG received eight
requests for judicial security-related assistance from the districts. 52 The
TOG fully supported six of the requests and denied two requests because
they did not fall within the TOG’s area of responsibility. The following
are two examples of TOG support to the USMS’s judicial security
mission:

       •    A federal judge already under a protective detail because he had
            received a letter containing white powder received two calls
            threatening his life. Later, calls were placed to 911 and a local
            television station claiming that there was a bomb in the
            courthouse where the judge worked. The FBI was involved in
            the investigation and informed the TOG that there were
            approximately 30 suspects. The TOG determined the location
            from which the phone was used and where the phone was
            purchased. A suspect was subsequently arrested after the TOG
            obtained the store’s security video.

       •    In response to a district request for technical assistance, the
            TOG provided electronic equipment to monitor the residence of
            a federal judge who was presiding over a terrorist trial.

       The TOG has provided training on its support capabilities to
district personnel. In July and August 2006, and again in July 2007, the
USMS highlighted the TOG’s capabilities during a Protective Investigation
Training Program at the Federal Law Enforcement Training Center.
During the training, USMS district personnel were informed about the
TOG’s capability to provide protective intelligence gathering and analysis,
information sharing with state and local law enforcement, and tactical
support for judicial security missions. However, the training did not
make all Judicial Security Inspectors aware that the TOG has increased
its support to the judicial security mission. In response to our November
2006 telephone survey of 82 Judicial Security Inspectors, 26 (32 percent)
told us that they were not aware of the initiative to expand the use of the
TOG for protecting the judiciary. 53 JSD managers told the OIG that the


       52  The TOG began tracking district requests for its assistance on judicial
security cases in September 2006.

      53 We noted that 24 of the 26 Judicial Security Inspectors who stated they were

unaware of the enhanced TOG capabilities did not attend the training at the Federal
Law Enforcement Training Center.




U.S. Department of Justice                                                           55
Office of the Inspector General
Evaluation and Inspections Division
JSD plans to hold training seminars for Judicial Security Inspectors in
October and November 2007.

The USMS Rapid Deployment Team Program

       The JSD recently began creating a Rapid Deployment Team
program to respond to significant judicial security incidents around the
country, such as an assault on a judge or a disruption of a U.S.
courthouse’s operation. The Rapid Deployment Team responds to the
location to assist the local USMS district in managing the incident. In a
July 2006 interview for an AOUSC staff publication, the USMS Director
stated that it was his “goal to change how the Marshals Service protects
the Judiciary, from being less reactive to more proactive in our approach.
We need to be ready, as much as we possibly can, to respond.” The
Director said that one key factor in accomplishing this would be to
establish rapid deployment teams:

       We want to be fast in getting personnel where they need to
       be. For example, when someone harms or makes a viable
       threat to harm a judge or his or her family members, we
       want to put trained teams in that area as fast as possible to
       do a couple things: to immediately protect the judge or the
       family members or whoever needs protection, and also to
       relieve our field offices of managing both the crisis and their
       regular day-to-day duties. Rapid deployment teams, as we
       see them to be, will be a group of several deputies or court
       security inspectors who will, when the “fire alarm” rings, be
       on the ground quickly. They will be on call for a set period of
       time – perhaps 30 days at a time. We’ll have a back-up team
       ready as well, so if there’s a secondary incident or there’s a
       need for additional people, we’ll have that team available.
       These teams will be fully trained, equipped, ready to be
       mobilized. So again, the timeliness of our response is very,
       very critical. 54

       In March 2007, the Deputy Assistant Director for Judicial
Operations told the OIG that the JSD had directed a working group to
draft the operating methodology and plans for the Rapid Deployment
Team by the end of May 2007. In April 2007, the Assistant Director of
the JSD told the OIG that a senior JSD manager could immediately

       54 “Interview: A Dialogue with USMS Director John F. Clark,” Third Branch,

Vol. 38, Number 7, July 2006.



U.S. Department of Justice                                                          56
Office of the Inspector General
Evaluation and Inspections Division
deploy to assess the need for a Rapid Deployment Team that would be
composed of JSD managers and circuit court inspectors from around the
country. If the JSD manager determined that a team was necessary, the
manager would work with the district to define the expertise needed on
the team and select the appropriate USMS staff to serve on it. As of July
2007, the Rapid Deployment Team program was still in development and
no deployments had occurred. The Deputy Assistant Director told the
OIG that the operating methodology and plans for the Rapid Deployment
Teams were not expected to be completed until September 2007.




U.S. Department of Justice                                            57
Office of the Inspector General
Evaluation and Inspections Division
                CONCLUSIONS AND RECOMMENDATIONS


       We found that from the issuance of the OIG’s March 2004 report
through October 2006, the USMS’s efforts to improve its capabilities to
assess reported threats and identify potential threats languished. Threat
assessments took longer to complete, and over half of the threats
reported by USMS districts remained pending as of October 1, 2006.
Also, the USMS did not implement an effective program to develop
protective intelligence that identifies potential threats against the
judiciary. The USMS acknowledges these deficiencies and plans to revise
its threat assessment process. During this review, the USMS also
informed the OIG of numerous initiatives it plans to implement by
FY 2010 to enable it to collect and analyze information on potential
threats to the judiciary.

      Also since our March 2004 report, the USMS has implemented
several security measures to protect the federal judiciary. The USMS has
implemented a congressionally authorized home alarm program and
worked with a contractor that installed about 95 percent of the home
alarms requested by federal judges. The USMS is also enhancing its
TOG and developing a Rapid Deployment Team program to support the
judicial security mission.

      We believe that to fulfill its critical mission of protecting the
judiciary, the USMS must exhibit a greater sense of urgency in
implementing its plans for improving its capability to assess reported
threats, creating and sharing protective intelligence on potential threats,
and completing the implementation of enhanced security measures.

     To improve the USMS’s capacity to protect the federal judiciary, we
recommend that the USMS take the following actions:

       1. Develop a formal plan that defines objectives, tasks, milestones,
          and resources for the new threat assessment process.

       2. Create a workload tracking system for threat assessments.

       3. Develop a formal plan that defines objectives, tasks, milestones,
          and resources for implementing a protective intelligence
          function to identify potential threats.




U.S. Department of Justice                                               58
Office of the Inspector General
Evaluation and Inspections Division
       4. Modify USMS databases to support the new threat assessment
          process and protective intelligence function to identify potential
          threats.

       5. Require the home alarm contractor to notify the USMS of alarm
          events after notifying the local law enforcement agency.

       6. Issue operational guidance for requesting and deploying
          Technical Operations Group resources and Rapid Deployment
          Teams.




U.S. Department of Justice                                                59
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX I: JSD ACCOMPLISHMENTS AND INITIATIVES




U.S. Department of Justice                               60
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            61
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            62
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            63
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            64
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            65
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            66
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX II: RESULTS OF THE OIG’S JUDICIAL SURVEY


1. Please indicate the type of judgeship you hold. (n=712)

                                                         Court of
                                     Court of Federal International
                                         Claims           Trade
                                          1% (6)         0.5% (3)
                          Circuit
                         10% (74)




                                                                         District
                  Bankruptcy                                               41%
                   18% (129)                                              (295)




                                           Magistrate
                                           29% (205)




2. What do you believe poses the greatest risk to federal judges? (n=696)

     600


     500
                                                    (76%)
     400


     300


     200


     100            (19%)
                                                                               (5%)
       0
           The known threat (stated or     Unknown general danger               Other
                   implied)              associated with being a judge




U.S. Department of Justice                                                              67
Office of the Inspector General
Evaluation and Inspections Division
3. How secure or insecure do you feel from job-related threats or danger
   at the courthouse, away from the courthouse, and at home? (n=712)

                                      Some-        Neither     Some-
                              Very     what       Secure or     what       Very
    Location                 Secure   Secure      Insecure    Insecure   Insecure
    At the Courthouse           431      197           28          29         11
    Away from the
                                 91      212          264         97         33
    Courthouse
    At Home                     114      316          119        123         21



4. In your opinion, which types of judicial proceedings generally pose a
   high risk to the personal safety of federal judges?

                                  Civil Matters
          Type of Case                         Number of Responses
          Admiralty                                       2
          Animal Rights                                 109
          Antitrust                                       1
          Bankruptcy                                    212
          Civil rights                                  298
          Contracts                                      18
          Deportation                                    82
          Energy Allocations                              1
          Environmental Matters                          68
          Foreclosure                                   205
          Forfeiture and Penalty                        126
          Freedom of Information                         27
          Labor Suits/Employment                        172
          Land Condemnation                              62
          Personal Injury                                36
          Pro Se                                        559
          Product Liability                               7
          Real Property                                  29
          Social Security                                66
          Tax                                           160
          Tort Issues                                    44
          Trademark/Patent                                2
          Other                                          72




U.S. Department of Justice                                                        68
Office of the Inspector General
Evaluation and Inspections Division
                                Criminal Matters
          Type of Case                      Number of Responses
          Armed Robbery                              150
          Assault                                    122
          Auto Theft                                  17
          Burglary                                    32
          Counterfeiting                              22
          Embezzlement                                18
          Escape                                     156
          Espionage                                   92
          Extortion                                   83
          Firearms Violation                         200
          Forgery                                     14
          Fraud                                       29
          Gang Activity                              474
          Homicide                                   151
          Kidnapping                                 108
          Larceny/Theft                               17
          Narcotics                                  337
          Obstruction of Justice                     116
          Organized Crime                            363
          Perjury                                     16
          Pro Se                                     385
          Public Corruption                           37
          Sex Offenses                                42
          Terrorism                                  321
          Treason                                     78
          Unarmed Robbery                             19
          Other                                       41



5. Throughout your career as a federal judge, have you ever received a
   threat?



                        No
                       31.6%
                       (222)

                                                  Yes
                                                68.4%
                                                 (481)




U.S. Department of Justice                                               69
Office of the Inspector General
Evaluation and Inspections Division
6.   In calendar year 2005, how many threats did you receive?

                                        Number of
           Response Choices             Responses         Percentage
           None                              254                53
           1                                 125                26
           2-5                                96                20
           6-10                                0                  0
           More than 10                        3                  1
            Total                            478               100%



7.   Please estimate how many of the threats you received in calendar
     year 2005 were related to cases on your docket and how many were
     not specifically related to these cases. If none, enter “0.”

                                                          Average number of
     Threats                                               threats received
     Threats related to cases on my docket                  2 (n=197)
     Threats not specifically related to cases on my
                                                             1 (n=87)
     docket
     Threats not known if related to cases on my docket      1 (n=61)



8.   Of the threats you received during calendar year 2005, how many
     did you report to the USMS?

                                        Number of
           Response Choices             Responses         Percentage
           All                               174                78
           Most                               14                  6
           Some                               11                  5
           Few                                 4                  2
           None                               19                  9
           Total                             222               100%




U.S. Department of Justice                                                    70
Office of the Inspector General
Evaluation and Inspections Division
9.   For threats in calendar year 2005 that you did not report to the
     USMS, to whom did you report the threats that you received?

                                                      Number of
      Response Choices                                Responses         Percentage
      Federal Bureau of Investigation Official                3                 7
      Local Law Enforcement Official                          5                12
      Don’t Know                                             23                53
      Other                                              12                    28
      Total                                              43                   100%



10. Please indicate the reason(s) why you did not report all the threats
    you received in calendar year 2005 to the USMS.

                                                         Number of
      Response Choices                                   Responses       Percentage
      I did not think that the threat posed a real
                                                             34                 75
      danger.
      I was not familiar with the reporting
                                                              1                     1
      procedures for threats.
      The threat reporting process was too
                                                              0                     0
      cumbersome or inconvenient.
      I did not want additional protection.                   0                     0
      Other                                                  11                 24
      Total                                                  46               100%



11. Please rate the performance of the USMS in each of the following
    tasks:
                                           Very               Ade-             Very
 Tasks                                     Good       Good    quate    Poor    Poor         N/A
 Initially responds to a threat with the
                                             150        38        14      7             0    10
 appropriate protective measures.
 Keeps you informed during the
                                             126        36        30    16              2    10
 protective investigation process.
 Informs you of the final outcome of the
 protective investigation process,
 including additional actions or                 11     42        27    18              3    10
 measures required to ensure your
 safety.




U.S. Department of Justice                                                                    71
Office of the Inspector General
Evaluation and Inspections Division
12. In general, how satisfied or dissatisfied are you with the
    performance of the Judicial Security Inspector (JSI) assigned your
    district or circuit?
    (n=686)


  400

  350

  300           (50%)

  250

  200

  150

  100                                                    (18%)
                                    (15%)
   50
                                                                            (3%)                   (3%
      0
             Very Satisfied   Somewhat Satisfied Neither Satisfied nor   Somewhat            Very Dissatisfied
                                                     Dissatisfied        Dissatisfied


13.        Please explain the reason(s) for your response to Question 12.

          The responses were grouped into 11 categories. About half the
          respondents provided positive comments by describing their JSI as
          knowledgeable, helpful, and responsive. However, about 100 judges
          said that they did not know who the JSI in their district is.


14. In calendar year 2005, did you receive a security briefing or other
    instruction from the USMS concerning security measures?

                                                         Number of
            Response Choices                             Responses           Percentage
            Yes                                              479                  70
            No                                                   158                    23
            Received instruction, but
                                                                  46                     7
            uncertain of provider
            Total                                                683               100%




U.S. Department of Justice                                                                                72
Office of the Inspector General
Evaluation and Inspections Division
15. In calendar year 2005, did you request a security briefing from the
    USMS?

                                                       Number of
        Response Choices                               Responses              Percentage
        Yes                                                     4                    2
        No                                                  162                    98
        Total                                              166                   100%



16. In your opinion, how adequate or inadequate was the security
    briefing or instruction concerning security measures that you
    received from the USMS? (n=479)

 300


 250


 200                              (54%)


 150             )
              (37%)

 100


  50

                                                         (6%)                   (2%)
   0
                                                                                                     (1%)
       More than Adequate   Generally Adequate   Neither Adequate nor   Generally Inadequate   Very Inadequate
                                                      Inadequate



17. Have you completed a Judicial Security Profile for the USMS?

                                                       Number of
        Response Choices                               Responses              Percentage
        Yes                                               575                     83
        No                                                116                     17
        Total                                             691                   100%




U.S. Department of Justice                                                                              73
Office of the Inspector General
Evaluation and Inspections Division
18. Please indicate the reason(s) why you have not completed a Judicial
    Security Profile for the USMS. Check all that apply.

                                                                       Number of
      Reasons                                                          Responses
      No need/Insufficient threat against me.                             30
      Have not been asked to complete a Judicial Security
                                                                             15
      profile by the USMS.
      Have concerns about the security of my personal
                                                                             34
      information.
      Other (e.g., too much detail needed on form, no time
                                                                             54
      to complete it, USMS misplaced the last one)


19. In general, how satisfied or dissatisfied are you with the
    performance of the court security officers (CSO) that provide
    courtroom security? (n=692)

    450

    400
             (61%)
    350
    300

    250
    200
                             (30%)
    150
    100
     50
                                             (3%)               (4%)
                                                                                    (2%)
      0
          Very Satisfied   Somewhat     Neither Satisfied    Somewhat         Very Dissatisfied
                            Satisfied   nor Dissatisfied     Dissatisfied

20. In your opinion, how adequate or inadequate is the number of
    Deputy U.S. Marshals in your district or circuit for providing the
    security services necessary to protect the judicial process?

                                                     Number of
     Response Choices                                Responses              Percentage
     More than Adequate                                   80                     12
     Generally Adequate                                  361                     53
     Neither Adequate nor Inadequate                      62                      9
     Generally Inadequate                                135                     20
     Very Inadequate                                      43                      6
     Total                                              681                     100%



U.S. Department of Justice                                                                  74
Office of the Inspector General
Evaluation and Inspections Division
21. Please rank from 1 to 5 (with 1 being the most important and 5
    being the least important) the following measures that you believe
    the USMS should implement to further improve judicial security.

                                           Number of Respondents per Ranking
Tasks                                     First   Second     Third    Fourth      Fifth
Improve intelligence collection and
                                           233      131       104         82         71
analysis capability
Provide additional protective
investigation training for Deputy            46         83    201        172       116
Marshals
Improve analysis of federal, state, and
local threat databases for relevant          97     204       136        117         64
information
Provide additional protection equipment
                                           112      134       117        164         91
or technological capabilities
Increase the security presence in
                                           146          70      61        77       269
courtrooms



22. Do you have an alarm system provided by the USMS installed in
    your home?

                                             Number of
        Response Choices                     Responses               Percentage
        Yes                                     450                      65
        No                                        238                   35
        Total                                     688                  100%




U.S. Department of Justice                                                           75
Office of the Inspector General
Evaluation and Inspections Division
23. How satisfied or dissatisfied are you with the home alarm system
    provided by the USMS? (n=454)

 300


             (62%)
 250



 200



 150



 100                       (26%)



  50


                                             (6%)             (5%)              (1%)
   0
         Very Satisfied   Somewhat     Neither Satisfied   Somewhat       Very Dissatisfied
                           Satisfied   nor Dissatisfied    Dissatisfied



24. Please provide comments or suggestions you have about the home
    alarm system provided by the USMS.

       Judges were generally satisfied with the home alarms they received,
       but there were areas where some judges noted a need for
       improvements. One of the more common suggestions was that
       USMS form partnerships with local police to ensure an appropriate
       response when an alarm goes off in a home. There were also
       concerns about continued funding to monitor the alarms and
       technical issues related to the model of alarm systems that was
       installed.




U.S. Department of Justice                                                                76
Office of the Inspector General
Evaluation and Inspections Division
25. Please indicate the primary reason why you do not have an alarm
    system from the USMS installed in your home.

      Reason                                              Number of
                                                          Responses      Percentage
      I have requested it, but it has not been                47             31
      installed yet.
      I have other security measures already in                  5             3
      place.
      No need/Insufficient threat against me.                  40            26
      Other                                                    58            39
      Total                                                   150           100%



26. In general, how satisfied or dissatisfied are you with the
    performance of the USMS in protecting federal judges? (n=686)
400

350

300

250

200
           (55%)
150
                          (32%)
100

 50
                                           (7%)                               (1%)
                                                             (4%)
  0
        Very Satisfied   Somewhat     Neither Satisfied   Somewhat       Very Dissatisfied
                          Satisfied   nor Dissatisfied    Dissatisfied



27. Please provide additional comments or concerns you have about the
    USMS’s protection of federal judges, including its handling of
    security briefings and other JSI responsibilities.

      Overall, judges were very complimentary about the protection
      provided by the USMS. USMS staff was characterized as
      professional, competent, and dedicated. Many judges said that more
      resources (e.g., money, deputies) are needed in their district and
      that USMS should be more proactive in terms of identifying potential
      threats. Concerns were also expressed about the safety of their
      respective courthouses and off-site security.


U.S. Department of Justice                                                                   77
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX III: RESULTS OF THE OIG’S JUDICIAL SECURITY
                       INSPECTOR SURVEY


Introduction

1.   What level security clearance do you hold?

                                      Number of
      Response Choices                Responses   Percentage
      Top Secret                         63           77
      Secret                             18           22
      Don’t Know                         1            1
      Total                              82          100%



2.    Are you also a District Threat Investigator?

                                      Number of
      Response Choices                Responses   Percentage
      No                                 35           43
      Yes                                47           57
      Total                              82          100%




U.S. Department of Justice                                     78
Office of the Inspector General
Evaluation and Inspections Division
3.   How many years have you been a District Threat Investigator for this
     district? (n=82)




                 10%

                                                        More than 3 years
                                                        3 years or less
                                                        2 years
                                                        1 year
                                                        Less than 1 year

       5%



       1%

                                                  34%

            5%




4.   Approximately how much of your time is spent investigating threats
     in a typical week?

                                      Number of
      Response Choices                Responses    Percentage
      75% or more                          0            0
      50% to 75%                           1              1
      Between 25% and 50%                  3              4
      25 % or less                        41            50
      Non-DTIs                            37            45
      Total                               82            100%




U.S. Department of Justice                                                  79
Office of the Inspector General
Evaluation and Inspections Division
5.   Did you attend the Protective Investigation Training Program held at
     FLETC during July and August?
                                        Number of
      Response Choices                  Responses          Percentage
      No                                   57                  70
      Yes                                    25                 30
      Total                                 82                100%

6.   How many years have you been the JSI for this district?

                               Years of Experience as a JSI (n=82)

                                15%




                      6%




                    6%



                                                                     57%



                                                                           More than 3 years
                         16%                                               3 years or less
                                                                           2 years
                                                                           1 year
                                                                           Less than 1 year




7.   How many judges does your district currently provide protection for?

     The number of judges that district reported providing protection for
     ranged from 3 to 125.




U.S. Department of Justice                                                                     80
Office of the Inspector General
Evaluation and Inspections Division
8.   To whom do you offer security briefings? Check all that apply.

                  Number of Districts Offiering Security Briefings

        100
                  82
                                 74
          80
          60                                 44
                                                        34
          40
          20
                                                                       0
           0
                 Judges      Court staff   Judges     Other           None
                                            family                   Offered



9.   Approximately how many judges in your district have received a
     security briefing in the past 12 months?

     The number of judges that received a security briefing in the past 12
     months ranged from 0 to 80.


10. Approximately how many judges in your district have declined a
    security briefing in the past 12 months?

      The number of judges that declined a security briefing in the past
      12 months ranged from 0 to 29.


11. What is the most common reason given by judges for declining a
    security briefing in the past 12 months? Check one.

                                                  Number of
       Response Choices                           Responses          Percentage
       Insufficient threat                              3                      7
       No reason provided                              14                   35
       No time                                         10                   25
       Security briefing is not useful                  2                      6
       Other                                           11                   27
       Total                                           40                  100%




U.S. Department of Justice                                                         81
Office of the Inspector General
Evaluation and Inspections Division
12. Approximately how many judges in your district have declined to
    provide a Judicial Personnel Profile?
     The number of judges that declined to provide a Judicial Personnel
     Profile ranged from 0 to 75. On average, six judges per district
     declined to provide one.

Protective Details

13. Who in your district primarily supervises protective details?

                                          Number of
     Response Choices                     Responses      Percentage
     US Marshal                                0              0
     Chief DUSM                                0              0
     Supervisory DUSM                          5              6
     JSI                                      72             88
     Don't Know                                4              5
     Other                                     1              1
     Total                                    82            100%



14. Who in your district primarily coordinates with headquarters on
    resource requests for protective details over 72 hours?

                                           Number of
      Response Choices                     Responses     Percentage
      US Marshal                               1              1
      Chief DUSM                               8             11
      Supervisory DUSM                         2              2
      JSI                                     65             79
      Don't Know                               4              5
      Other                                    2              2
      Total                                   82            100%




U.S. Department of Justice                                            82
Office of the Inspector General
Evaluation and Inspections Division
Office of Protective Intelligence

15. In April 2006, USMS headquarters issued new directives on
    protective details and investigations, among others. Have you had
    the opportunity to review the new directives?
                             USMS Directives (n=82)



                                                    Yes

                                                    No

                  6% (5)   5% (4)
                                                    Not aware of new directives




                                         89% (73)




16. Please tell me how much you agree or disagree with the following
    statement: My district generally receives threat assessments from
    OPI in sufficient time to assist in conducting threat investigations.

                                                           Number of
     Response Choices
                                                           Responses              Percentage
     Strongly Agree                                              23                  28
     Agree                                                       43                  52
     No opinion                                                  11                  14
     Disagree                                                      4                  5
     Strongly Disagree                                             1                  1
     Total                                                       82                100%




U.S. Department of Justice                                                                     83
Office of the Inspector General
Evaluation and Inspections Division
17. According to the new directives, OPI has 3 days to analyze expedited
    threats and 7 days to analyze standard threats. Is the 3-day time
    frame for expedited threats sufficient to assist you in conducting
    these types of threat investigations?

                                          Number of
      Response Choices                    Responses      Percentage
      Yes                                    45              55
      No                                     27              33
      Don’t Know                             10              12
      Total                                  82             100%



18. If no, what would be a sufficient timeframe for expedited threats?

                                          Number of
      Suggested Timeframes                Responses      Percentage
      Less than 1 day                        1               4
      1 day                                 18              66
      2 days                                 8              30
      Total                                 27            100%



19. Is the 7-day time frame for standard threats sufficient to assist you
    in conducting these types of threat investigations?

                                          Number of
      Response Choices                    Responses      Percentage
      Yes                                    60              73
      No                                     16              20
      Don’t Know                              6               7
      Total                                  82             100%




U.S. Department of Justice                                               84
Office of the Inspector General
Evaluation and Inspections Division
20. If no, what would be a sufficient timeframe for standard threats?

                                                  Number of
     Suggested Timeframes                         Responses       Percentage
     5 days                                           7               44
     4 days                                               1               6
     3 days                                               5               31
     2 days                                               3               19
     Total                                                16         100%



21. How useful is the Comparative Analysis score to your district in
    assessing threats?

                           Comparative Analysis (n=82)

 100%

  90%

  80%

  70%                           66%

  60%                            (54)

  50%

  40%

  30%

  20%                                                              13%
                12%
                                                   9%
  10%            (10)                                              (11)
                                                    (7)
   0%
             Very Useful   Somewhat Useful      Not Useful     Don't Know/No
                                                                  Opinion



22. Please explain your response to the previous question.

     The responses regarding the usefulness of the Comparative Analysis
     were grouped into 15 categories. The top five response categories
     were 1) views Comparative Analysis as another tool to make
     decisions; 2) general comment about Comparative Analysis not being
     useful; 3) respondents did not know how to interpret the score; 4)
     rely on information from the field more than Comparative Analysis
     score; and 5) use score to justify decisions to judges.




U.S. Department of Justice                                                     85
Office of the Inspector General
Evaluation and Inspections Division
23. In the past 12 months, has the Comparative Analysis score caused
    you to… Check all that apply.

                                                                     Number of
         Possible Actions Taken                                      Responses
         Close an investigation?                                        14
         Re-open an investigation?                                      0
         Enhance a protective response?                                 6
         Discontinue a protective response?                             4
         Confirm the investigator’s actions?                            53
         Comparative Analysis score has had no impact                   5



24. How useful is the MOSAIC score to your district in assessing
    threats? (n=82)


 100%

   90%

   80%

   70%
                                          62%
   60%
                                           (51)
   50%

   40%

   30%
                                                                                   21%
   20%
                                                           11%                     (17)
   10%               6%
                                                           (9)
                     (5)
    0%
                Very Useful        Somewhat Useful      Not Useful           Don't Know/No
                                                                                  Opinion



25. Please explain your response to the previous question.

     The responses regarding the usefulness of the MOSAIC were
     grouped into 14 categories. The top five response categories were 1)
     views MOSAIC as another tool to make decisions; 2) respondents did
     not know how to interpret the score; 3) rely on information from the
     field more than MOSAIC score; 4) use score to justify decisions to
     judges; and 5) general negative comment about MOSAIC.




U.S. Department of Justice                                                                86
Office of the Inspector General
Evaluation and Inspections Division
26. In the past 12 months, has the MOSAIC score caused you to…
    Check all that apply.

                                                                  Number of
        Possible Actions Taken                                    Responses
        Close an investigation?                                       6
        Re-open an investigation?                                      1
        Enhance a protective response?                                 6
        Discontinue a protective response?                             1
        Confirm the investigator’s actions?                           49
        MOSAIC score has had no impact                                19



27. Have you received any TAVISS query results from OPI in the past 12
    months?

                                                     Number of
      Response Choices                               Responses     Percentage
      Yes                                               24             29
      No                                                40              49
      Don’t Know                                        18              22
      Total                                             82            100%



28. How useful are the TAVISS query results to your investigations?
                                     TAVISS (n=24)

 100%

  90%

  80%

  70%
                 58%
  60%

  50%            (14)

                                    38%
  40%
                                    (9)
  30%

  20%

  10%
                                                        0%             4% (1)
   0%
              Very Useful    Somewhat Useful         Not Useful   Don't Know/No
                                                                     Opinion




29. Please explain your response to the previous question.

U.S. Department of Justice                                                        87
Office of the Inspector General
Evaluation and Inspections Division
        The responses regarding the usefulness of TAVISS were grouped into
        3 categories: 1) provides agency contacts; 2) overall positive
        comment; and 3) JSI had little knowledge of TAVISS.


30. What other information does your district currently receive from
    OPI? Check all that apply.

                                     OPI Information Products (n=82)

   90
                80             80
   80

   70
                                                   59
   60

   50

   40

   30
                                                                       21
   20

   10
                                                                                         1                2
    0
             Threat       Information          Foreign            Other                None         Don't Know
           Advisories       Bulletins       Travel Briefs


31. How useful are the other information products from OPI we just
    listed to your investigations?
                                    Information Products (n=82)

 100%

  90%

  80%

  70%

  60%

  50%           45%              44%
  40%            (37)               (36)

  30%

  20%

  10%                                                   6%                  4%   (3)
                                                        (5)                                   1%   (1)
   0%
            Very Useful       Somewhat            Not Useful      Don't Know/No         Not Applicable
                               Useful                                Opinion

32. Please explain your response to the previous question.



U.S. Department of Justice                                                                               88
Office of the Inspector General
Evaluation and Inspections Division
     The responses regarding the usefulness of the information products
     were grouped into 11 categories. The top five response categories
     were 1) overburden by amount of information provided by OPI; 2)
     information provided was not specific enough; 3) overall positive
     comment about the information products; 4) information serves as
     an alert to them; and 5) use information to keep judges and court
     family informed.


33. What additional information do you need from OPI to better assist
    you in protecting the judiciary?

     JSIs identified a need in several areas that would assist them in
     protecting the judiciary. The responses were grouped into 9
     categories and the top five response categories are: 1) nothing –
     overall positive comment about OPI; 2) summaries of threat
     information; 3) training (primarily on threat investigations); 4) more
     communication with districts; and 5) regionally focused bulletins,
     advisories, and local intelligence.


34. Aside from reporting judicial threats for assessment, what other
    types of judicial security information does your district provide to
    OPI?

     The responses were grouped into 10 categories and the top five were:
     1) no additional information provided to OPI; 2) information on high
     threat trials and courthouse incidents; 3) information on terrorist
     groups; 4) suspicious activity, subjects, and packages; and 5) other
     (i.e., background information).

Threat Investigations

35. Approximately how many threat investigations are currently open in
    your district?

     The responses to this question ranged from 0 to 100. On average,
     there were 7 open threat investigations per district.




U.S. Department of Justice                                                 89
Office of the Inspector General
Evaluation and Inspections Division
36. Please describe any working relationships—formal or informal—that
    your district has established with state or local law enforcement or
    state courts concerning the USMS’s judicial security mission.

     JSIs stated that they had good relationships with state and local law
     enforcement and state courts. Many participated on local task
     forces, conducted security seminars for state judges, or served a
     liaison for legal associations (e.g, ABA) in the area.

37. Does your district generally contact the U.S. Attorneys Offices’
    Intelligence Research Specialists during the course of threat
    investigations?

                                        Number of
      Response Choices                  Responses       Percentage
      Yes                                  30               37
      No                                    40              49
      Don’t Know                            12              14
      Total                                 82             100%


38. Is your district aware of any state and local law enforcement or court
    databases that contain information to assist the USMS in threat
    investigations?

                                        Number of
      Response Choices                  Responses       Percentage
      Yes                                  48               58
      No                                    22              27
      Don’t Know                            12              15
      Total                                 82             100%


39. Does your district routinely query these databases when
    investigating threats?


                                        Number of
      Response Choices                  Responses       Percentage
      Yes                                  43               52
      No                                    17              21
      Don’t Know                            22              27
      Total                                 82             100%



U.S. Department of Justice                                             90
Office of the Inspector General
Evaluation and Inspections Division
40. Does your district have direct access to these databases?

                                        Number of
      Response Choices                  Responses        Percentage
      Yes                                  34                42
      No                                    25              31
      Don’t Know                            23              27
      Total                                 82             100%



41. Who in your district is primarily responsible for entering threat
    information into WIN/JDIS/JDIS? Check one.

      Response Choices                  Number of
                                        Responses        Percentage
      JSI                                  13                16
      DTI                                  65                79
      Don’t Know                            1                 1
      Other                                 3                 4
      Total                                82              100%



42. What percent of threat cases do you estimate district personnel
    enter into WIN/JDIS/JDIS?

                                        Number of
      Response Choices                  Responses       Percentage
      75% or more                          63               77
      50-75%                                5               6
      Between 25 and 50%                    4               5
      25% or less                           2                2
      Don’t Know                            8               10
      Total                                82             100%




U.S. Department of Justice                                              91
Office of the Inspector General
Evaluation and Inspections Division
43. What is the most important factor that affects how quickly threat
    information is entered into WIN/JDIS/JDIS? Check one.

                                                   Number of
      Response Choices                             Responses               Percentage
      Staff workload                                  21                       25
      Perceived severity of threat                      41                    50
      Date threat was reported to USMS                   6                     7
      Don’t Know                                        10                    12
      Other                                              4                     5
      Total                                             82                   100%



Director’s Initiatives

44. Are you aware of an initiative to expand the use of TOG for judicial
    security operations?

                              Aware of TOG Expansion (n=82)




                                                                     Yes
                                                                     No
                      32%
                       (26)




                                                               68%
                                                              (56)




U.S. Department of Justice                                                              92
Office of the Inspector General
Evaluation and Inspections Division
45. Who in your district normally requests assistance from TOG?

                                         Number of
      Response Choices                   Responses       Percentage
      US Marshal                             1               1
      Chief DUSM                             13             15
      Supervisory DUSM                        2               3
      JSI                                    50             61
      DTI                                     9             11
      Don't Know                              5               6
      Other                                   2               3
      Total                                  82            100%



46. Has your district requested TOG assistance for judicial security at
    any time in the past 12 months?

                                         Number of
      Response Choices                   Responses       Percentage
      Yes                                     24              29
      No                                       54             66
      Don’t Know                                  4               5
      Total                                   82             100%



47. If no, the district did not request TOG assistance because:

                                         Number of
      Response Choices                   Responses       Percentage
      Not aware of TOG capabilities            2               4
      No need for TOG assistance               50             92
      Not aware of TOG availability               0               0
      Other                                       2               4
      Total                                   54             100%




U.S. Department of Justice                                                93
Office of the Inspector General
Evaluation and Inspections Division
48. Are you aware of the Director’s recent initiative that created Rapid
    Deployment Teams (RDT) to assist districts in crisis situations
    involving judicial security?
                          Rapid Deployment Teams (n=82)

                                                          Yes
                               6%                         No
                               (5)                        Don't know




                                                    39%
                                                     (32)




                 55%
                   (45)




49. Who in your district would request RDT assistance?

                                                            Number of
      Response Choices                                      Responses   Percentage
      US Marshal                                                 2           3
      Chief DUSM                                                 32         39
      Supervisory DUSM                                            1          1
      JSI                                                        35         43
      Don't Know                                                 12         14
      Other                                                       0          0
      Total                                                     82         100%




U.S. Department of Justice                                                           94
Office of the Inspector General
Evaluation and Inspections Division
50. Has your district requested a Rapid Deployment Team at any time in
    the past 12 months?

                                                        Number of
      Response Choices                                  Responses     Percentage
      Yes                                                     1             1
      No                                                         79       97
      Don’t Know                                                  2        2
      Total                                                      82      100%



51. If no, the district did not request any RDT assistance because:

                                                        Number of
      Response Choices                                  Responses     Percentage
      Not aware of RDT capabilities                           3             4
      Not aware of RDT availability                              23       29
      No need for RDT assistance                                 51       64
      Other                                                       2        3
      Total                                                      79      100%



FBI Joint Terrorism Task Force (JTTF)

52. Does your district have a JTTF representative?

                           JTTF Representation (n=82)



                                                         Yes
                                                         No



              37%
              (30)




                                                           63%
                                                          (52)




U.S. Department of Justice                                                         95
Office of the Inspector General
Evaluation and Inspections Division
53. If yes, is the representative a full-time or part-time member of the
    JTTF?

                                          Number of
      Response Choices                    Responses        Percentage
      Full-time                                18               35
      Part-time                                 31             59
      Don't Know                                 3              6
      Total                                     52            100%



54. How much interaction or communication do you have with the JTTF
    representative?

                                          Number of
      Response Choices                    Responses        Percentage
      Daily                                    26               50
      Weekly                                    12             23
      Less than once a month                     3              6
      Monthly                                    4              8
      None                                       7             13
      Total                                     52            100%



55. How would you rate the usefulness of your district having
    representation on the JTTF to the judicial security mission?

                                          Number of
      Response Choices                    Responses        Percentage
      Not Useful                                7               13
      Somewhat Useful                           13             25
      Very Useful                               22             43
      Don't Know/No opinion                     10             19
      Total                                     52            100%




U.S. Department of Justice                                                 96
Office of the Inspector General
Evaluation and Inspections Division
56. How would you rate the overall usefulness of your district having
    representation on the JTTF?

                                         Number of
      Response Choices                   Responses      Percentage
      Not Useful                               2              4
      Somewhat Useful                         13             25
      Very Useful                             28             54
      Don't Know/No opinion                    9             17
      Total                                   52            100%




U.S. Department of Justice                                              97
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX IV: THE UNITED STATES MARSHALS SERVICE
                           RESPONSE




U.S. Department of Justice                                  98
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            99
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            100
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            101
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            102
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            103
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            104
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            105
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            106
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX V: OIG’S ANALYSIS OF THE UNITED STATES
                  MARSHALS SERVICE RESPONSE



      On September 6, 2007, the OIG sent a copy of the draft report to
the United States Marshals Service (USMS) with a request for written
comments. In a memorandum dated September 28, 2007, the USMS
provided a response in which it agreed with five of the report’s six
recommendations and described the actions it had taken or planned to
take to implement the recommendations. The USMS disagreed with one
recommendation. Based on our analysis of the USMS’s response, four
recommendations are resolved and remain open, and two
recommendations are unresolved and remain open.

        In its response, the USMS described a number of initiatives that it
has undertaken to enhance its protective intelligence program from our
initial March 2004 report to the present. The OIG has identified many of
these initiatives in the current report and included in Appendix I a March
30, 2007, memorandum from the USMS that provides a detailed list of
initiatives, some of which the USMS has completed and others it has
planned. While the OIG acknowledges that these initiatives are
important steps towards implementing the USMS’s new threat analysis
process and its protective intelligence program for identifying potential
threats, we note, as discussed in our report, that the USMS has made
only limited progress in implementing the major components of its
judicial security program.

      Recommendation 1. Develop a formal plan that defines
objectives, tasks, milestones, and resources for the new threat
assessment process.

       Status. Resolved – open.

       Summary of the USMS Response. The USMS concurred with this
recommendation. The USMS identified actions that are part of its plan
for a new threat assessment process. The USMS’s Assistant Director for
the Judicial Security Division issued a memorandum to the districts,
dated September 10, 2007, on the new threat assessment process. He
also announced that the Threat Management Center was activated on
September 17, 2007. The USMS is eliminating the 3- and 7-day
timeliness standards and updating the draft of Policy Directive 10.3,
which should be completed by October 2007. Office of Protective


U.S. Department of Justice                                             107
Office of the Inspector General
Evaluation and Inspections Division
Intelligence (OPI) staff will be assigned to develop a formal plan for the
new threat assessment process.

      OIG Analysis. The actions undertaken and planned by the USMS
are responsive to our recommendation. Please provide the OIG with
copies of (1) the memorandum announcing the activation of the Threat
Management Center which describes the Center’s policies and
procedures; (2) the September 10, 2007, memorandum; (3) the
memorandum notifying the districts of the elimination of the 3- and 7-
day standard; (4) Policy Directive 10.3; and (5) the formal plan that
incorporates the policies and procedures defined in the documents
referenced in the USMS response. The plan should define objectives,
tasks, milestones, and resources for the new threat assessment process.
By December 31, 2007, please provide the requested information or a
status report describing the progress and expected completion dates.

      Recommendation 2. Create a workload tracking system for
threat assessments.

       Status. Resolved – open.

       Summary of the USMS Response. The USMS concurred with this
recommendation, and stated that an OPI staff member will be assigned
to develop a formal plan for a new workload tracking system. The USMS
identified actions that are part of a plan for the new tracking system.
Currently, OPI management uses a manual tracking system based on the
Justice Detainee Information System to track the analysis of reported
protective investigations. The system is used to produce weekly reports
to monitor the status of the investigation as well as to perform research
and analysis on national or regional trends. The system also is used to
produce monthly status reports that detail the dates cases are received
in OPI and what cases are still active investigations. OPI uses its manual
system to ensure that case analyses are completed within the prescribed
timeframes established by USMS policy. The system also can produce
reports analyzing the workload distribution in OPI. Such reviews are
used in making decisions about future work assignments.

      OIG Analysis. The actions undertaken and planned by the USMS
are responsive to our recommendation. This recommendation was
intended to help ensure that the USMS did not permit a reoccurrence of
a situation similar to the one in October 2006 when a backlog of 1,190
threat assessments had not been completed by OPI staff. So that the
OIG can assess whether the new workload tracking system will enable
USMS management to effectively manage the threat assessment

U.S. Department of Justice                                               108
Office of the Inspector General
Evaluation and Inspections Division
workload, please provide the OIG with a copy of the formal plan for the
new workload tracking system being developed by OPI staff. The
documents provided should include a complete listing of the data that
will be tracked regarding the new threat analysis process and sample
weekly and monthly reports. Please provide the requested information or
a status report describing the progress and expected completion dates by
December 31, 2007.

      Recommendation 3. Develop a formal plan that defines
objectives, tasks, milestones, and resources for implementing a
protective intelligence function to identify potential threats.

       Status. Unresolved – open.

       Summary of the USMS Response. The USMS concurred with this
recommendation, but in its response did not address how it intends to
develop a formal plan defining objectives, tasks, milestones, and
resources for implementing a protective intelligence function to identify
potential threats. The USMS instead provided a description of specific
activities it uses to collect information on potential threats. The USMS
has also issued guidance on the type of judicial security information to
be reported by the districts and has included the guidance in training
being provided to its Criminal Investigators and Deputy U.S. Marshals.

       OIG Analysis. Although the USMS concurred with the
recommendation, we believe that the USMS description of its activities is
not responsive to our recommendation. Although the USMS’s response
identifies multiple information sources that can be used to identify
threats, it does not discuss what information will be collected, how it will
be analyzed, or what reports will be prepared by its district staff to
address potential threats. Nor did the USMS address how it will develop
a formal plan that defines objectives, tasks, milestones, and resources for
implementing a protective intelligence function to identify potential
threats. By December 31, 2007, please provide the OIG with a copy of a
formal plan, including examples of reports, or a status report on its
development.

      Recommendation 4. Modify USMS databases to support the new
threat assessment process and protective intelligence function to identify
potential threats.

       Status. Resolved – open.




U.S. Department of Justice                                              109
Office of the Inspector General
Evaluation and Inspections Division
      Summary of the USMS Response. The USMS concurred with this
recommendation. The USMS stated that it has been modifying databases
to identify potential threats, and that these initiatives will take place in
two phases, one short-term and the other long-term.

      OIG Analysis. The actions undertaken and planned by the USMS
are responsive to our recommendation. To enable the OIG to assess the
USMS’s progress in implementing this recommendation, please provide
the OIG with a status report on the implementation of the described
short- and long-term initiatives by December 31, 2007.

      Recommendation 5. Require the home alarm contractor to notify
the USMS of alarm events after notifying the local law enforcement
agency.

       Status. Unresolved – open.

       Summary of the USMS Response. The USMS disagreed with this
recommendation. The USMS stated that its Off-Site Judicial Security
Program Office has evaluated this issue through extensive consultation
with senior USMS management and its home alarm contractor. The
USMS stated that its home alarm contractor follows standard industry
protocols for alarm events by first calling the resident’s emergency point
of contact and, if no response is received, contacting local law
enforcement. According to the USMS, local law enforcement officials will
contact the USMS if they determine the event warrants USMS
participation. The USMS stated that it “believes this is a reasonable and
appropriate program management decision to ensure judicial safety is
given the highest priority while remaining cognizant of the agency’s
limited resources” and that the current policies for “USMS notification of
alarm events at judicial residences are prudent.”

      OIG Analysis. The OIG does not agree with the USMS’s position
because the USMS’s response does not demonstrate that the current
protocol provides the USMS with timely information on alarm incidents
necessary for it to fulfill its mission of protecting the judiciary. We are
concerned that the current protocol makes local law enforcement
responsible for determining when the USMS should be notified of an
incident at a judge’s residence and for notifying the USMS so that it may
consider initiating a protective investigation.

      We are also concerned that the current protocol offers too many
opportunities for errors that would preclude a prompt USMS response to
an incident. For example, under the current protocol, for the USMS to

U.S. Department of Justice                                              110
Office of the Inspector General
Evaluation and Inspections Division
consistently and promptly respond to incidents at federal judges’
residences the many hundreds of different local law enforcement
agencies that may respond to alarms at the more than 2,000 different
judges’ residences must (1) have current information from the USMS
regarding which addresses are judges’ residences; (2) consistently
connect that information to the address when responding to an
emergency call; (3) accurately identify that an incident may be pertinent
to the USMS judicial security mission; and (4) promptly contact the
appropriate USMS district office to inform the USMS of the incident.
Merely maintaining local law enforcement’s awareness of all judges’
current addresses as judges are appointed, move, resign, or retire will be
a difficult and time-consuming task for the USMS. In contrast, if the
USMS arranges for its contractor to notify the USMS district office of an
alarm incident after it has been reported to local law enforcement, the
notifications will be accurate, immediate, and entirely within the control
of the USMS and its single contractor.

       The OIG requests that the USMS reconsider this recommendation
that the USMS require its contractor to notify the USMS of alarm events
after notifying the responsible local law enforcement agency. If the
USMS maintains that the current protocol provides adequate protection
to the judiciary, we request that the USMS provide a more complete
response that demonstrates that in FY 2007 it was notified of home
alarm incidents consistently and promptly to enable it to carry out its
mission to protect the judiciary. Specifically, the OIG requests
information that the USMS did not have available during our review: (1)
a list of the local law enforcement agencies that received letters notifying
them or providing updated information on federal judges’ residences in
their jurisdictions; (2) a list of the incidents since the contract was
awarded in which the contractor notified a local law enforcement agency
that an alarm had occurred at a judge’s residence, by district; (3) when
each local law enforcement agency subsequently notified the USMS
district office of the incident; and (4) the action that the USMS district
office took in each case. We request that the USMS inform us of its
reconsideration and provide the requested information by October 31,
2007.

     Recommendation 6. Issue operational guidance for requesting
and deploying Technical Operations Group resources and Rapid
Deployment Teams.

       Status. Resolved – open.




U.S. Department of Justice                                               111
Office of the Inspector General
Evaluation and Inspections Division
     Summary of the USMS Response. The USMS concurred with this
recommendation. The USMS stated that policies addressing this
recommendation will be issued in the first quarter of FY 2008.

      OIG Analysis. The actions planned by the USMS are responsive to
our recommendation. Please provide the OIG with formal operational
guidance for requesting and deploying Technical Operations Group
resources and Rapid Deployment Teams by December 31, 2007.




U.S. Department of Justice                                       112
Office of the Inspector General
Evaluation and Inspections Division
